<html>
<title> - STATE LAND AND WATER CONSERVATION ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                 STATE LAND AND WATER CONSERVATION ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

      FEDERAL FUNDING OF THE STATE LAND AND WATER CONSERVATION ACT

                               __________

                     MARCH 11, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-2

                               __________

           Printed for the use of the Committee on Resources


                              <snowflake>


                     U.S. GOVERNMENT PRINTING OFFICE
 40-050 CC                  WASHINGTON : 1997



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 11, 1997......................................     1

Statements of Members:
    Christian-Green, Hon. Donna, a U.S. Delegate from the Virgin 
      Islands....................................................     4
    Faleomavaega, Hon. Eni, a U.S. Delegate from American Samoa..     3
    Hansen, Hon. James, a U.S. Representative from Utah..........     1
    Hefley, Hon. Joel, a U.S. Representative from Colorado.......     4
    Smith, Hon. Bob, a U.S. Representative from Oregon...........     2

Statements of witnesses:
    Beck, Judy, Commissioner, Glenview Park District, IL.........    12
        Prepared statement.......................................    32
    Cove, Thomas J., Vice President of Government Relations, 
      Sporting Goods Manufacturers Association...................     9
        Prepared statement.......................................    30
    Murphy, Donald W., Director, California Department of Parks 
      and Recreation.............................................     7
        Prepared statement.......................................    29
    Stevenson, Katherine, Associate Director, National Park 
      Service....................................................    24
        Prepared statement.......................................    34
    Tindall, Barry S., Director of Public Policy, National 
      Recreation and Park Association............................     5
        Prepared statement.......................................    40

Additional material supplied:
    Murphy, Donald: LWCF Funding Levels..........................    39
    Stevenson, Katherine: Receipts, Appropriations and 
      Unappropriated Balances Reported by Treasury Dept. (LWCF)..    37
    Tindall, Barry:
        Capital Investment in Parks and Recreation...............    49
        LWCF Project Examples....................................    48



 FEDERAL FUNDING OF THE STATE LAND AND WATER CONSERVATION ACT PROGRAMS

                              ----------                               



                        TUESDAY, MARCH 11, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:17 a.m., in 
room 1324, Longworth House Office Building, Hon. James Hansen 
(Chairman of the Subcommittee) presiding.

  STATEMENT OF HON. JAMES HANSEN, A U.S. REPRESENTATIVE FROM 
 UTAH; AND CHAIRMAN, SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC 
                             LANDS

    Mr. Hansen. We are here at this relatively early hour today 
to learn a little about the needs and benefits of Federal 
funding for the State Land and Water Conservation Fund program. 
This has been a highly successful program, which has brought 
the opportunity for open space recreation to millions of 
Americans on a daily basis.
    I am disappointed to see that Secretary of the Interior 
Bruce Babbitt, like Secretary James Watt before him, has set 
off on a pathway to eliminate funding for the State Land and 
Water Conservation Fund program. This is particularly ironic 
because the Clinton Administration endorsed the revitalization 
of this program in a 1994 report.
    Today, we will hear from the Administration that it just 
simply is not a high enough priority for them to seek funds. I 
find that curious when the Administration is seeking nearly 
$300 million for Federal land acquisition in fiscal year 1998. 
Included within the Administration's request are such items as 
$4.2 million request for the Appalachian Trail, where the 
Federal Government is now buying up the viewshed along the 
trail at a cost of over $2 million per mile, and $22 million to 
buy several dams in the State of Washington.
    I know that there are those who advocate increasing funds 
for both the Federal and State LWCF programs. That is really 
only a question of money, and I look forward to their 
suggestions as to where the funds will come from. In the 
meantime, it is appropriate to ask the question of priority. 
Specifically, should Congress continue to fund the Federal LWCF 
program exclusively?
    The State LWCF program not only addresses the highest 
priority needs of the American public for outdoor recreation 
close to home, but because of the matching requirements is an 
even better deal for the taxpayer than Federal land 
acquisition. Further, report after report documents that the 
Federal Government cannot properly manage the 650 million acres 
already entrusted to it.
    In fact, several years ago the Interior Inspector General 
recommended that the Fish and Wildlife Service suspend 
acquisition altogether, until they could properly manage the 
lands that they had already acquired.
    I am pleased that a grassroots effort has begun to help 
revitalize this program. I encourage those persons associated 
with that effort to work with us on the Committee. As Members 
become more aware of the benefits of this program through 
efforts such as this hearing, I believe that it will be 
possible to generate the strong bipartisan support for this 
effort to restore the original vision of this Act which was to 
provide recreation opportunities for all Americans.
    I have been on this committee for nine terms now, and we 
have looked at this every time and I have yet to see something 
occur. I would really like to see something come to fruition at 
this point.
    Mr. Hansen. My friend from Oregon, the Chairman of the 
Agriculture Committee, is with us. Mr. Smith, do you have any 
opening comments in this regard?

 STATEMENT OF HON. BOB SMITH, A U.S. REPRESENTATIVE FROM OREGON

    Mr. Smith. Thank you, Mr. Chairman. Just an observation or 
two. The Soil and Water Conservation Fund, as I recall, was 
always a sinking hole that those who wanted and could not fund 
any other program, find money for any other program, used it. 
And as you and I sat and watched the addition to the Federal 
lands to 650 million acres and no money to support those 
additions, the other parks and other purposes, we raised the 
question all along why are we taking more land off the tax 
roles, especially in the western States.
    In my district, 75 percent of the land is already owned by 
the Federal Government. The Federal Government does not need 
any more land in my part of the State of Oregon and of course 
in many States of the West, as you well know, including your 
own. A heavy, heavy percentage of the lands in those States 
already belong to the Federal Government and the tax structure 
on the rest of the land that is privately held supports all the 
infrastructure so we are pinched--by the way, the Federal 
Government is a lousy neighbor. They do not pay their way.
    So as one who comes from that kind of a background I am 
very concerned. I know, as you mentioned, Mr. Chairman, in 1994 
Mr. Clinton himself recommended that the shares be in this 
manner 30 percent to the State, 30 percent to the Federal 
Government, 30 percent to cities, and 10 percent discretionary.
    So before we go forward I would like to analyze how we 
ought to share this thing. Frankly, I am more inclined to 
believe that the States have a better idea how to manage this 
fund than does the Federal Government. And taking the 
opportunity for the Federal Government to make wrong decisions 
I prefer to give it all to the States and maybe some of the 
cities. So if we are going to fund it I would like to see it 
distributed. Thank you, Mr. Chairman.
    Mr. Hansen. I thank the gentleman for his comments. I 
notice he pointed out that he felt the Federal Government was a 
lousy neighbor. As you know, members of this committee, we are 
going to have a payment in lieu of tax problem as the amount 
recommended by the Clinton Administration is substantially 
less.
    The problem we have out in the West, we have all of the 
folks encouraging people to come out to our areas. Like you, 
many of the areas in the first congressional district and some 
of the counties are 90 percent owned by the Federal Government. 
So folks come out and they have a great impact on the area and 
we have to clean it up. They are up there hiking and they break 
a leg and we have to go get them. They start a fire, we have to 
put it out. And then they turn around and say we do not want to 
pay you anything.
    So payment in lieu of taxes will be an issue here and I 
hope we can handle that. I am pleased to see my friend from 
American Samoa come in, the ranking member of the committee, 
Mr. Faleomavaega. Do you have anything you would like to say in 
opening statement, sir?

 STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A U.S. DELEGATE FROM 
                THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, my apologies for being 
late. The traffic was not very favorable in my coming this 
morning. I certainly would like to offer my personal welcome to 
the Chairman of our Agriculture Committee, the gentleman from 
Oregon who is also a member of the committee. I am very happy 
to see him here this morning.
    For the sake of time, I am going to submit my statement for 
the record and would like to proceed and welcome our gentlelady 
from the Virgin Islands and other members of our committee, the 
gentleman from Colorado. I would like to proceed if it is all 
right with you.
    Mr. Hansen. Thank you very much. Your full statement will 
be included in the record.
    [Statement of Mr. Faleomavaega follows:]

Statement of Eni F.H. Faleomavaega, a U.S. Delegate from American Samoa

    Since enactment of the Land and Water Conservation Fund in 
1964, over $3 billion have been appropriated for matching 
grants to the 50 States and U.S. insular areas used for land 
acquisition, open space needs and recreation development. 
Through this program more than 2.3 million acres have been 
acquired and recreation facilities built on some 25,000 sites. 
I'm sure each of us can point to successful protects in our 
communities which were made possible through LWCF funding. In 
American Samoa we have used the funds to improve the Pago Pago 
Park and Marina, Utulei Public Beach, Pago Stadium, Mialoa 
Fishing Complex, and the Lavolava Golf Course. Improvements 
that our visitors and residents alike have enjoyed.
    Funding for both the State and Federal side of the Land and 
Water Conservation Fund comes out of receipts from surplus 
Federal property sales and offshore oil and gas leases. Each 
year $900 million is credited to the program from these 
receipts, however, throughout the 1980's and 1990's less than 
one third of the amount credited has been appropriated for use. 
During the 104th Congress State side funding was zeroed out 
completely and the Federal share was cut substantially.
    Both the Federal and State sides of LWCF deserve continued 
funding--the Federal side allows for protection and 
conservation of areas of national significance while the State 
side allows State and local governments to determine how to use 
the funds to address local concerns and interests. I know it is 
the opinion of some that only one side of LWCF should be funded 
at the expense of the other but I think the success of this 
program shows that adequate funding for both sides should be 
reinstated.
    I thank the Chairman for calling this morning's oversight 
hearing and look forward to hearing from our witnesses 
regarding their experiences with the Land and Water 
Conservation Fund.

    Mr. Hansen. The gentlelady from the Virgin Islands is 
recognized.

 STATEMENT OF HON. DONNA CHRISTIAN-GREEN, A U.S. DELEGATE FROM 
                       THE VIRGIN ISLANDS

    Ms. Christian-Green. Good morning, Mr. Chairman, and good 
morning to the witnesses here today. I am new to this committee 
so I have not been participating in this ongoing discussion but 
I look forward to doing so this morning. And I feel very 
strongly about the importance of maintaining parks.
    It has been one of the main complaints as I campaigned this 
year through the Virgin Islands that our parks were in 
disrepair and our young people had no good places to go for 
recreation so I am very much interested in hearing the 
testimony. And I know the importance of parks not only to 
maintaining our country's health but also our quality of life. 
Thank you.
    Mr. Hansen. Thank you. The gentleman from Colorado, you are 
recognized.

   STATEMENT OF HON. JOEL HEFLEY, A U.S. REPRESENTATIVE FROM 
                            COLORADO

    Mr. Hefley. Mr. Chairman, I think our first meeting of the 
overall committee this year, in our packet of materials was a 
map from--I have forgotten where it was from, but it showed the 
public lands in this country, the Federal lands that were 
owned, and it showed it in a very dramatic and graphic way, 
something I knew and understood intellectually but to see it, 
it really is shocking.
    And that is that from the Colorado eastern border east 
there are almost no colored areas. Now, sure, there were a few 
parks and there were a few military bases and so forth that 
were Federal land east of the Colorado eastern border. From the 
eastern border of Colorado west it looked like the Federal 
Government owned everything because of the colored areas.
    And it is something that--it is a map, I wish I had it with 
me this morning, that we ought to have with us here in the 
committee to illustrate this and put it in perspective every 
time we talk about land and water issues because I do not think 
most people understand and I did not understand it quite as 
graphically as this displayed it.
    The West is largely owned by the Federal Government and 
partially because when they had the early settlement that was 
land that no one wanted at that time. And now we are living 
with that kind of a legacy. You are in Utah and in Washington 
and in Oregon, and certainly in Colorado. So as we think of 
these things, I think we ought to think of it in the 
perspective of that fact that the Federal Government owns a 
good part of the western United States and very little of the 
East. I think that is why we have trouble getting our eastern 
colleagues to understand what we are dealing with.
    Mr. Hansen. I think the gentleman's point is well taken. 
Our eastern folks do not have any idea of what we go through 
but we should have some wilderness in the East. I appreciate 
their efforts. The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I have no 
comments to make.
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Hansen. I yield to the gentleman.
    Mr. Faleomavaega. Just to tell my friend from Colorado that 
one of the latest issues of the National Geographic magazine 
points out the fact where Federal lands currently are located 
and I think the gentleman probably got a copy----
    Mr. Hefley. Someone handed me the map, Mr. Chairman, and 
the colored areas are Federal-owned lands and this illustrates 
what I am saying. This is Colorado's eastern border. If you 
look at Colorado west, what it amounts to, and if you look at 
Colorado, what it amounts to, and that is pretty dramatic.
    Mr. Hansen. I think the point the gentleman made is that--
no disrespect to our good friends from the States east of the 
area. But they have very little understanding of the problems 
we have out in our area. We are grateful for our witnesses who 
are here.
    Our first panel consists of Barry S. Tindall, Donald W. 
Murphy, Thomas J. Cove, and Judy Beck. If these folks would 
like to come up and you have a little sign there in front of 
you. If you can all figure out which one is yours we are OK. We 
appreciate you being with us today. We will start with Mr. 
Tindall, Director of Public Policy, National Recreation and 
Park Association, and then we will just move on across.
    Does anybody here have a statement that is going to take 
longer than five minutes? I really appreciate that. That is 
very kind of you. And if you will notice in front of you there, 
there is a traffic light and when the green goes on that means 
go, yellow means wind it up, and red means stop. And I would 
really appreciate you staying within the time. And I appreciate 
you being here. Mr. Tindall, we will turn to you, sir, and the 
time is yours.

   STATEMENT OF BARRY S. TINDALL, DIRECTOR OF PUBLIC POLICY, 
            NATIONAL RECREATION AND PARK ASSOCIATION

    Mr. Tindall. Thank you, Mr. Chairman. My name is Barry 
Tindall. I am Director of Public Policy for National Recreation 
and Park Association. We appreciate the invitation to be here 
this morning to share some points of view on something we have 
been advocates for for a long, long time. Before I get into my 
statement, I might say that my organization is looking forward 
with great enthusiasm to meeting in Salt Lake City this fall. 
We will bring between 5,000 and 6,000 public and other park and 
recreation folks into your State. We look forward to seeing and 
using the recreation resources at all levels of government, 
city, county and Federal resources as well.
    Let me also say that I do not fully understand the western 
point of view, if you will. My home is in New Jersey or was in 
New Jersey until I moved to northern Virginia, but my 
organization has historically supported a continuum of 
recreation destinations that range from the smallest community 
play lot to many of our great Federal resources.
    I want this Subcommittee to understand that we are a 
national association but most of our members, frankly, are non-
Federal employees. We have an intense interest in the stateside 
of the Land and Water Conservation Fund, as well as the Urban 
Park and Recreation Recovery Program and other things that are 
related, other statutes, policies, related to providing 
recreation resources and experiences.
    You have my statement. In answer to your question, yes, it 
would take far longer than five minutes to get through it. I do 
not intend to burden you with that. I would simply say that the 
stateside of the Land and Water Conservation Fund is, in fact, 
one of the great American conservation successes in this 
country. We have invested something in the order of $3.2 
billion of Federal funds.
    The important thing to note is that the States and 
subdivisions of States, with a great infusion of private sector 
interest, has more than doubled that money. It has leveraged in 
many cases 4 to 1, 5 to 1, 10 to 1, times the amount of the 
Federal investment to conserve land and to provide recreation 
access.
    Your staff asked us to say something about the needs for 
the program in the near future. In 1995 we did a national 
random sample survey of the 5,000 local park and recreation 
systems in this country that have at least one full-time 
executive. They told us that something in the order of $27.3 
billion would be necessary. That is the big picture dollar 
amount to restore, to increase the capacity, and to protect 
land for capital investment in parks, municipal and county 
public park and recreation systems.
    The States told us that they need at least $3 billion. We 
think this is a very conservative figure and maybe Mr. Murphy 
can expand on that. I think it is important, when you are 
looking at the Land and Water Conservation Fund, to recognize 
that the fund and its dollars are critically important, but it 
has also encouraged the States and local governments to 
undertake a large number of other conservation and recreation-
related initiatives--State Wild and Scenic Rivers, State trail 
systems, and State planning processes, for example. When the 
Land and Water Conservation was created in 1964 and 
operationalized in 1965, there were very few States that had 
anything approaching a comprehensive statewide planning 
process, but the fund provided incentives to encourage that 
type of thing and many States have worked out similar 
relationships with local governments.
    It is important, and I will try to wrap up with just 
focusing on what we think has gone wrong with the Land and 
Water Conservation Fund, particularly State assistance, since 
1981 and the abolishment of the Heritage Conservation and 
Recreation Service, originally the Bureau of Outdoor 
Recreation.
    That was the principal planning agency in this country for 
recreation and parks. It managed the Land and Water 
Conservation Fund. It negotiated between the Federal agencies 
as to what Federal priorities would be. That entity was 
abolished in 1981 and that exposed, inside the Interior 
Department, the stateside of the Land and Water Conservation 
Fund to horrible political pressures and the priorities of the 
Federal land systems, not only those managed by Interior, but 
the Agriculture folks as well through the Forest Service. So 
that is an issue, the abolishment of the agency.
    The elimination of the minimum allocation for State 
assistance in 1976, I believe, was another serious strike 
against the stateside of the Land and Water Conservation Fund. 
The reversal of that, to provide the Federal agencies with not 
less than 40 percent, obviously provides no protection 
whatsoever to the stateside of the Land and Water Conservation 
Fund.
    Limited consideration of State and local alternatives to 
Federal land conservation actions is another thing that, we 
believe, has caused the demise in land and water. The near 
abandonment of the resource investment concept is another. The 
American people will extract in excess of $2 billion in Outer 
Continental Shelf receipts this year. Our calculations indicate 
that a minimal percentage of that will go back to the Land and 
Water Conservation Fund and, as proposed by the Administration, 
exclusively for Federal lands.
    Lastly, Mr. Chairman, I would mention the absence of a 
grassroots constituency. That is not surprising because the 
stateside of the Land and Conservation Fund was created by 
Congress to be a grassroots-up program. That is, decisionmaking 
is best at State and local government levels. And, frankly, 
that has worked so well that some Members of Congress, maybe 
many Members of Congress, are challenged to gain political 
identify or connection, if you will, with the program.
    Given the budget stresses of the last several years I think 
the evidence will show that Members of Congress and maybe even 
people in the Executive Branch tend to be associated with 
specific Federal projects versus the more generic State 
program. I will stop at that point and be happy to answer any 
questions that the Subcommittee may have a little bit later on.
    [Statement of Mr. Tindall may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Tindall. We appreciate your 
comments. Our next witness is Donald W. Murphy, Director of 
California Department of Parks and Recreation. Mr. Murphy, it 
is good to see you again, sir. I appreciate your great comments 
with us both in California and here last year, especially your 
fine statement on the Park Reform Act. That was an excellent 
statement. I will turn the time to you, sir.

STATEMENT OF DONALD W. MURPHY, DIRECTOR, CALIFORNIA DEPARTMENT 
                    OF PARKS AND RECREATION

    Mr. Murphy. Thank you, Mr. Chairman. It is certainly good 
to see you again and good to be here and I appreciate the 
invitation. It is a privilege to be here today to talk about 
the vital importance of the Land and Water Conservation Fund 
for State and local programs.
    By way of introduction, let me tell you that I sit here 
wearing several hats. In 1991, Governor Pete Wilson appointed 
me Director of the California Department of Parks and 
Recreation. It is the nation's largest State park system with 
1.3 million acres and a budget of nearly $200 million. I have 
been with California State Parks since I entered as a park 
ranger cadet in 1980.
    Additionally, I serve as president of the National 
Association of State Outdoor Recreation Liaison Officers, 
commonly referred to as NASORLO, and it is the organization of 
State officials whose responsibility it is to apportion LWCF 
moneys to their respective States.
    Lastly, I am co-chair of the new organization, Americans 
for Heritage and Recreation, a newly formed coalition of LWCF 
stakeholders dedicated to securing more stable funding for 
conservation and outdoor recreation. This new organization 
represents a broad spectrum of individuals and ideas, from the 
Wilderness Society to the Sporting Goods Manufacturing 
Association, represented by my friend Tom Cove here, brought 
together with the realization that the restoration of LWCF for 
its original intention is vital for all of America.
    This is what I want you to understand from me today. A 
program that has worked so well for so many years has gotten so 
far off track that we really need a crane to put it back on 
track. And I am not here to denigrate the Federal funding side 
of the LWCF in favor of the State funding side. The two are 
necessary parts of a whole, and one should not exist without 
the other. But since I was invited here to speak on the 
importance of the stateside funding, I wish to confine my 
remarks to that area.
    When the Land and Water Conservation Fund became law in 
1965, this was its statement of purpose. The purposes of this 
part are to assist in preserving, developing, and assuring 
accessibility to all such quality and quantity of outdoor 
recreation resources as may be available and are necessary and 
desirable for individual active participation in such 
recreation, and to strengthen the health and vitality of the 
citizens of the United States by (1) providing funds for, and 
authorizing Federal assistance to, the States in planning, 
acquisition, and development of needed land and water areas and 
facilities, and (2) providing funds for the Federal acquisition 
and development of certain lands and other areas.
    The last portion of this statement is most important for my 
purposes here today. As the law was written, one of the first 
principles behind the Land and Conservation Fund is assistance 
to the States. This need was widely recognized on both sides of 
the aisle, and in prior Republican and Democratic 
administrations.
    In the years following this Act's passage, the States 
benefited greatly from LWCF. But with the coming of the 1980's, 
this changed dramatically. Support for the State and local 
programs plummeted. In the last two fiscal years, there were no 
LWCF appropriations for State and local matching grants.
    California is a case in point. In the 1970's, the Golden 
State benefited greatly from the LWCF, averaging a little more 
than $11 million each year which the State matched of course 
with an additional $11 million. Since then, however, funding 
dropped as quickly as a rock off the Golden Gate Bridge. In the 
1980's, the average LWCF annual appropriation for California 
fell to less than $7 million, and so far this decade we faced 
even worse averaging about $1.4 million. That is a mere 10 
percent of the funding we received in the 70's.
    The negligence is as bipartisan as the creation of the act 
itself, and spans administrations of both parties. California 
is not unique in this. Attendance in State parks around the 
country rose by more than 30 million annually between '87 and 
'92. In his 1995 report to Congress on the LWCF, National Park 
Service Director Kennedy said, ``States continue to support 
this program and depend on its annual apportionment to 
supplement existing funding sources in providing recreation 
opportunities to their communities. In many local instances it 
constitutes the only means of financing much-needed 
recreational opportunities for its populace, including youth-
at-risk, senior citizens, the economically disadvantaged, and 
those with disabilities.''
    There are many debates in these corridors, and even in this 
Subcommittee, about the role of Federal Government in 
preserving public lands. We experience this in Sacramento as 
well, I assure you. In another way, therefore, I cannot stress 
enough the importance of LWCF for States and local communities.
    In short, it gives more power to the people by placing the 
funds closer to home. Here in Washington, you refer to it as 
States' rights. Thousands of miles west of here, at the 
Capitol, they refer to it as local control. The benefits of 
this are numerous. More people are involved in the 
decisionmaking process. Communities must match the LWCF grant, 
so they have an incentive and a goal that can be attained. In 
many areas, problems in a State or community are best answered 
by those who live there.
    In its day, the LWCF has built ballparks in urban settings 
such as Oakland, it acquired Martin Luther King, Jr.'s boyhood 
home in Atlanta, and it helped finish off the Appalachian 
Trail. Over the life span of the program, stateside funding has 
financed more than 8,500 acquisition projects covering more 
than 2.3 million acres, and funded 28,000 outdoor recreational 
facility developments.
    Thirty some-odd years ago, the creation of the Land and 
Water Conservation Fund was a bipartisan measure that makes 
sense even today. It is an issue that is broad enough for all 
to accept and one that crosses many boundaries. That is why 
such a broad coalition has come together, as I said earlier.
    The restoration of the State and local LWCF funding should 
be an easy decision for you, and it is an easy decision that 
will immediately show many rewards throughout the country. 
There is no controversy in restoring State and local support in 
LWCF, but I can assure you there will be if this noble effort 
is abandoned.
    As you said yourself, sir, the need for public outdoor 
recreation space is greatest in urban and suburban areas of 
this country. For these reasons, continued exclusive focus on 
Federal land acquisition cannot be justified. I could have not 
said it better myself, sir. Thank you very much.
    [Statement of Mr. Murphy may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Murphy. I appreciate your 
testimony. Mr. Cove, Vice President of Government Relations, 
Sporting Goods Manufacturers Association. The time is yours, 
sir.

   STATEMENT OF THOMAS J. COVE, VICE PRESIDENT OF GOVERNMENT 
      RELATIONS, SPORTING GOODS MANUFACTURERS ASSOCIATION

    Mr. Cove. Thank you, Mr. Chairman. My name is Tom Cove. I 
am the Vice President of SGMA. We are the national trade 
association for producers of athletic equipment, footwear and 
apparel, and we welcome the opportunity to testify. In 1994, I 
was honored to serve on the National Park Service Review 
Committee for the Land and Water Conservation Fund.
    I continue to endorse the report's basic finding, namely, 
that a reinvigoration of the land and water vision is vitally 
needed in order for the country to save its heritage of open 
spaces and parks. Within my industry, as already has been 
mentioned today, we regard the experience of a well-funded 
stateside Land and Water Fund to be a demonstrable success.
    The fund allowed a great diversity of land to be protected 
and created an inventory of recreational opportunities for 
citizens in every State. Beyond the actual money it provided, 
the fund's incentives created partnerships that have resulted 
in innovative programs to protect habitat, preserve historic 
sites and provide recreation.
    The fund was a promise made to the American people 
beginning in 1965 that has delivered a return on investment 
that any Wall Street banker would be proud to call his or her 
own. And, sadly, the promise has been broken in recent years 
when the funding for the stateside of the fund was cut 
substantially.
    Let me take a moment to highlight why we think the State 
assistance program is important. State and local parks are 
where the vast majority of Americans recreate day in and day 
out. Although most Americans might love to visit our showcase 
national parks regularly, they are unable to do for reasons of 
economics, geography or competing leisure alternatives.
    The fact is most Americans recreate close to home. Whether 
for toddlers in a playground, teenagers on a ball field, or 
senior citizens on a nature trail, accessible recreation 
opportunities are basic to quality of life. Participation in 
recreation is valued not just for enjoyment but because 
Americans know it leads to improved health, better appreciation 
of nature and stronger, shared values.
    Providing recreation opportunities close to home is more 
imperative than ever. In the 1996 report, the Recreation 
Roundtable found that the greatest barrier to participation in 
outdoor recreation in America was lack of discretionary time. 
Local recreational alternatives speak directly to Americans' 
needs to carve more time out of the day.
    And at the same time the quality of recreation experiences 
in certain locations is falling. In the same Recreation 
Roundtable study, Americans living in large, urban areas are as 
a group the least satisfied with their recreation 
opportunities. The study also found that residents of America's 
largest metropolitan areas participate on average in fewer 
recreation activities and on a less frequent basis than other 
Americans.
    A '95 Washington Post article, entitled ``No Place to 
Play'', recounts the tragic story of two young girls who died 
after playing in an abandoned car in Southeast Washington. The 
underlying theme of the story, as articulated by many angry 
residents of the neighborhood, was the lack of opportunities 
for local children to recreate in a safe, enjoyable way.
    Seeing images of unscathed community gardens and parks 
located next to torched buildings after the '92 Los Angeles 
riots makes clear how urban communities value open spaces. In 
suburban America, conflicts over use of parks are increasingly 
commonplace. We see at the beginning of every season, soccer 
and football league administrators battling over access to 
precious fields.
    Primary school parents view junior high and high school 
sports programs as a threat to their children's ability to get 
field time. Women's sports proponents are becoming more vocal, 
appropriately so, about receiving their fair share of choice 
locations and practice times.
    This can limit the number of young people who have the 
opportunity to play sports and rarely are the elite athletes 
the one who loses, but more likely the intramural player for 
whom hurdles to participation become quickly instrumental. 
Privately owned fee-based facilities are being developed to 
meet the need for recreation. While these complexes do deliver 
quality services, we should not allow personal financial 
resources to determine citizens basic access to recreation.
    At the same time, there are almost daily reports about the 
negative health consequences of America's sedentary lifestyle. 
Just last Friday, the CDC reported 35 percent of the country's 
adults and 13 percent of our children weigh dangerously more 
than they should. This is the most overweight our nation has 
been since the government began compiling statistics in the 
'60's.
    The need to make recreation alternatives available to all 
Americans is good public policy. I do not want to leave the 
impression that the Land and Water Fund is simply or should be 
simply a funding vehicle for recreation. Any discussion of Land 
and Water must include its fundamental conservation legacy. The 
protection of threatened land and water resources remains a 
central and essential basis for the fund.
    Of particular concern is that we might be bringing up 
generations of Americans who have no connection to the wonders 
of our country's vast natural legacy. The policy implications 
of having large numbers of citizens with no hands-on contact 
with nature and conservation are scary.
    Looking forward in terms of funding, we believe that 
theoretical premise of investing royalty income from depletion 
of one non-renewal resource for protection of a different 
precious resource remains strong and valid. It should be 
maintained if at all possible.
    In closing, I would just associate my remarks with my 
friend, Mr. Murphy. And I want to be clear as much as our 
industry values the stateside fund, we do not advocate draining 
the Federal account to increase State appropriations. We 
understand the significant budget constraints facing the 
Congress but I think I would just like to look to the '94 
report which was eloquent in capturing the vision we endure.
    So I will close with this. We envision a network of parks, 
preserves, open spaces, greenways, recreations sites and 
centers stretching across this nation, touching all 
communities, and accessible to all Americans. It is a noble and 
appropriate vision, one which the Land and Water Fund can 
definitely deliver and will only take the commitment--a long-
term commitment--of resources to make it happen. I thank you 
for the opportunity to testify.
    [Statement of Mr. Cove may be found at end of hearing.]
    Mr. Hansen. Thank you, Mr. Cove. We appreciate your 
testimony. Commissioner Judy Beck, Glenview Park District of 
Illinois. Commissioner, we are grateful to have you with us and 
we will turn the time to you.

 STATEMENT OF JUDY BECK, COMMISSIONER, GLENVIEW PARK DISTRICT, 
                            ILLINOIS

    Ms. Beck. Mr. Chairman, and members of the Subcommittee, 
thank you. My name is Judy Beck and I am an elected park 
commissioner in Glenview, Illinois, and have been for 18 years. 
I am one of 2,100 elected in our State to serve without 
compensation. I have also served as the president of the 
Illinois Association of Park District, representing over 300 
forest conservation and park districts in the State.
    And I would like to speak today on behalf of restoring 
funding through the local grant portion of the Land and Water 
Conservation Fund, a commitment by Congress that is fundamental 
to the protection of recreational opportunities for all 
Americans wherever they reside.
    As a locally elected official I am certainly aware of the 
need to contain spending but I also am aware of the need for a 
partnership, one that has a long history of success and that is 
what my remarks will be dedicated to this morning. In Illinois, 
our State's existing public recreation lands and facilities are 
inadequate to meet the needs of 11.5 million people, 80 percent 
of whom reside in just 18 communities.
    Less than 4 percent of Illinois' land is in public 
recreation and conservation use. Although we are recognized as 
a leader in recreation distribution systems intense competition 
for land brought about by urban sprawl in the agricultural 
counties severely limits our ability on the local level to 
afford the increasing demand for public open space and 
recreation lands.
    And without increased and stable Federal funding 
opportunities will disappear and recreation lands and pristine 
natural areas in Illinois for future generations will be lost 
forever. Last year, projects totaling more than--last year 
communities sought $24 million in assistance and over the years 
we have had projects totaling more than $290 million in value 
funded in Illinois. The need and the demands obviously are 
there.
    Let me briefly tell you about some of the parks' industry. 
We are a separate unit of government authorized by State 
statute that encompasses all of the Village of Glenview and 
parts of five other surrounding villages and unincorporated 
Cook County, with an approximate population of 50,000. We have 
independent taxing capabilities for open space and recreation, 
the limits of which have been capped and our budget by design 
is 60 percent fees and charges.
    The challenge, though, in Glenview, indeed in all of 
Northeastern Illinois and in other suburban and urban areas is 
to provide for open space and recreation in highly populated 
areas with a strong economy driving up land values. To 
illustrate that, undeveloped land in my community is priced by 
the square foot, not by the acre.
    I would like to share with you the outstanding results of 
the Land and Water Conservation Program in my community. The 
Grove, a 123 acre nature preserve and center, is on the 
national historic landmark register. It was the home of Robert 
Kennicott, who at the time was the western most natural 
scientist for the Smithsonian Institution, the discoverer of 
dozens of species of plants and animals, many of which are 
threatened and remain on the site today, and one of the early 
explorers of Alaska.
    In 1975, LWCF money was used as a part of a million dollar 
package to purchase 82 acres of Robert Kennicott's homestead. 
That money was leveraged with State and public funds as well as 
private contributions that include six acres and the Kennicott 
homestead from the Zenith Corporation.
    Again in 1995, LWCF dollars were used in the same manner 
adding to the Grove 41 acres so it was owned by the John C. and 
Catherine T. MacArthur Foundation. As a result of that, our 
agency was able to reunite two parcels that were once 
originally part of Kennicott's Grove. We now have open space, 
we have habitat, we have two museums, and the nature center.
    None of this would have been possible without the original 
Land and Water Conservation dollars. In addition, the 
operation, maintenance and management of this project is 
locally, not federally funded. Today the Grove is a vital part 
of our community. Approximately 18,000 school children visit 
the Grove and the total annual attendance is about 55,000. It 
is clear that by any measurement this is a success story.
    I testify before you today because I believe in the value 
of parks and recreation and what it adds to the lives of all 
Americans. I have seen the impact of suburban sprawl and the 
tremendous brownscape problems in the city. I have also seen 
firsthand that stateside funding is a stimulus to acquire 
additional money for investment in our parks.
    Funding does more than provide opportunities for fun and 
games. It impacts youths at risk, crime prevention, health care 
cost reduction, economic growth, urban revitalization, improved 
environmental quality, and promotes a tremendous sense of 
family pride in the community. If recreation is viewed as an 
industry in 1990 through a study we found that we contribute 
$3.1 billion to the Illinois economy including 7,000 private 
sector jobs.
    I am asking for your assistance and I thank you for the 
opportunity to bring the concerns of local officials before you 
today.
    [Statement of Ms. Beck may be found at end of hearing.]
    Mr. Hansen. Thank you, Commissioner, I appreciate your 
testimony. The gentleman from American Samoa is recognized for 
five minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I appreciate the 
testimony that has been forwarded this morning by members of 
our panel, and I do have a couple of questions I would like to 
ask collectively for their response. I am informed that the 
Appropriations Committee does not favor supporting funding 
State grant programs.
    At the same time it is my understanding if the number one 
request from members of the Appropriations Committee is to 
provide funding for Federal land acquisition that this seems to 
be one of the problems that we have with the law itself, the 
Land and Water Conservation Fund. If we put these two together 
and there is some very strong disagreements in terms of how we 
go about in resolving it.
    Now I believe the record will show that the members of this 
side of the aisle have always been very supportive of State 
grant programs especially when it is on a matching basis, 50/50 
match. And I guess the question that is raised here is where do 
we get the money to pay for this.
    And I would like to ask the members of the panel if you 
have any comments to that effect. How do we convince the 
Members that what you are saying is positive and that we should 
be supportive of funding of the program?
    Mr. Murphy. I would like to take a shot at that in the 
beginning since you asked it collectively. We are here to 
advocate for the original intent of the Land and Water 
Conservation Fund which was $900 million from the Outer 
Continental Shelf oil royalties. That is where the money came 
from and that is where it should continue to come from.
    It was a bipartisan agreement back in 1965. It basically 
said that we are going to use money made from this nonrenewable 
resource to support outdoor recreation and protect other 
natural and cultural resources in this country. It was a 
perfect tradeoff and it made absolute sense and it continues to 
make sense today, and that is where the money should continue 
to come from.
    However, I want to hasten to add that none of us are 
insensitive to the fact that this country faces a tremendous 
deficit and that we are in the process after the newly formed 
organization that I mentioned, AHR, Americans for our Heritage 
and Recreation of looking at ways that we can bring back to 
Congress and to this committee a restructuring at LWCF in 
looking at other funding sources and we are in that process 
right now with our stakeholders.
    We think it is very important to at least take a honest 
look at that. However, it should not be ignored that this $900 
million is there. It was a commitment that this country made to 
its people and that commitment should continue to be honored. 
As far as the Federal side of the fund is concerned, as you say 
there are general requests but Mr. Tindall alluded to the fact 
that what happens is that because this program has worked so 
well and the programs have taken place on a State and local 
level there has unfortunately been a disconnect with Members of 
Congress on the stateside of the fund because it has been 
administered so well locally.
    And what we have got to do is to get Members of Congress 
educated as to how their individual districts are benefiting 
tremendously from this fund even though they may not recognize 
it and see the same direct connection that they see when 
Federal acquisition takes place which they then get political 
credit for.
    But the record is clear that that is there to show Members 
the tremendous benefit that has been derived in their 
individual districts. It is just a matter of education and that 
is also one of the goals and objectives of this newly formed 
organization, AHR, to get Members educated in that regard.
    Mr. Faleomavaega. Mr. Tindall.
    Mr. Tindall. Yes. I cannot really speak to your first 
observation that the Interior Appropriations Subcommittee may 
not look favorably, either collectively or individually, on the 
stateside of the Land and Water Conservation Fund. I have some 
personal opinions on that relative to certain members but I 
will keep those personal for the time being.
    There are individual members on that Subcommittee and in 
the Congress who believe that there is absolutely no Federal 
role, no Federal obligation, no Federal responsibility to do 
anything relative to parks and recreation for State or local 
units of government. That is the perspective and point of view 
that they have, and probably nothing that we can do can 
dissuade them from that view.
    We would argue that you could make a parallel statement 
relative to local police forces, or support for local prison 
construction, or local education or transportation. You could 
go through a whole litany of Federal aid investments.
    Mr. Faleomavaega. Or for that matter the entire National 
Park Service should return to the States for the localities to 
administer.
    Mr. Tindall. Well, I am not suggesting that. The National 
Park System and the other Federal land systems play critical 
roles in this country. But we addressed one Member of Congress 
in a private meeting a few weeks ago who said, ``I want to cut 
the Federal Government out of this completely.'' Now, I think 
this Subcommittee in 60 minutes or less could probably draft an 
amendment that would take OCS revenues and send them, on some 
formula basis, directly to the governor of each State.
    That would create a great equity of distribution. Now that 
legislator may or may not write that legislation. But it could 
happen and the Federal side could work exactly as it works 
today, make a case for Federal systems, for units of the 
Federal systems, and see what that adds up to.
    But the point is, and if you look at the Administration's 
numbers, and I am not sure we are talking about the same 
numbers in terms of what the Administration has requested----
    Mr. Faleomavaega. Zero.
    Mr. Tindall. From the Land and Water Conservation Fund for 
fiscal years 1998 and 1997--that is zero as far as the 
stateside is concerned, but there are dollars requested with 
the Federal system. By our calculations it comes out to 7.2 
percent of total OCS revenues of in excess of $2 billion.
    Now, we are not a poor nation. Certainly we have budget 
problems, but more so it is a question of priorities and how we 
use those dollars versus whether we should have parks or 
whether we should have transportation or whether we should have 
more police or security, things like that.
    Mr. Faleomavaega. I am sorry. My time is up, Mr. Chairman. 
I will wait for the next round. Thank you, Mr. Tindall.
    Mr. Hansen. Thank you. The gentleman from Colorado is 
recognized for five minutes, Mr. Hefley.
    Mr. Hefley. Thank you, and thank the panel. In light of the 
bond issues that have been passed by various States and local 
jurisdictions in recent years and the lottery, a lot of States 
including Colorado have a lottery which proceeds go to parks 
and outdoor recreation. Do we really need this fund today, do 
the States really need it?
    Mr. Murphy. Well, speaking on behalf of the State of 
California where we have passed some local bond measures, we 
have not passed a State bond measure for the last ten years in 
the State of California. And for me the unequivocal answer is 
yes, we do need this fund because it is an investment in the 
heritage of the people of this nation.
    And I might add quickly that it is not a fund that comes 
all from the Federal Government. I really need to emphasize 
that this is a matching fund for the States so the States have 
incentive and responsibility so it is an investment made by the 
Federal Government in each of its constituent 50 States and 
territories who in turn have to make an investment of their own 
as well.
    In going back to the fundamental principle here, we talked 
about using Outer Continental Shelf oil royalties, a resource 
that belongs to all of the people of this nation, and I 
emphasize all of the people, not the government. It belongs to 
the people who are in the individual States and it was a 
bipartisan decision that that money would be divided amongst 
the States and the States would match that fund.
    I think the need is greater than ever, especially in terms 
of the pressures and the numbers of population increases in the 
demographic changes that we have particularly in the State of 
California just to keep up in this regard. So I think the 
program is needed now more than ever and it is not just a 
matter of money but it is a matter of commitment and 
philosophical investment in the heritage of this country.
    Ms. Beck. I would also like to respond. I think that you 
have to keep in mind that the Land and Water Conservation Fund 
is not funding projects, it is really usually seed money from 
which a project is built. And while there is a 50 percent match 
that is required, it is usually only one small portion of the 
project and it enables with the overall aura of Federal funding 
buying the project in the local community, put together a 
package, go out into the private sector and get private givers 
and foundations involved.
    I started out with a group of other citizens in front of 
bulldozers in order to--it is just this classic story, in order 
to preserve what had been deemed a national historic landmark 
but there were no Federal funds that went with that 
designation. It was strictly up to the local community to 
somehow gather the dollars and the will in order to preserve 
that precious part of America's past.
    Mr. Tindall. Congressman, there is a dimension of the Land 
and Water Conservation Fund that has not really been cited here 
this morning. We certainly agree with the previous comments in 
response to your question. But what gets overlooked here is 
sort of the planning process and the anticipation that a 
community can do something about its open space and its 
recreation space needs.
    I have no numbers whatsoever to support this. But my hunch 
is that the hope, the anticipation, that community X or 
community Y or the State of California, the State of New 
Jersey, is going to get a certain amount of resources on an 
annualized basis for Land and Water Conservation Fund projects 
encourages communities to think about their needs.
    And I think, frankly, there were far more projects that 
were unfunded by the Land and Water Conservation Fund, even in 
the better days than there were those that received assistance. 
But the notion that citizens are thinking about their needs 
through a planning process is encouraging. I think they find 
ways to get the resources whether or not they get a Land and 
Water Conservation Fund grant. But it encourages public 
thinking and private thinking about a community's resources and 
how they are going to be used.
    So they have these intangibles out there. But we totally 
agree. The seed money, the catalytic effect of the Land and 
Water Conservation Fund has been phenomenal. Our data suggests 
that only 6 percent of this large need figure would come from 
Federal sources. That is all Federal sources, not just Land and 
Water, but ISTEA and urban park moneys and maybe some other 
things. They all go into that mix.
    Mr. Hefley. Does the panel see these funds as needed 
primarily for acquisition of more land or for operation 
infrastructure to utilize better the lands that you already 
are?
    Mr. Murphy. I would like to respond to that. I think that 
speaking especially on behalf of the State of California, I 
think that the fund certainly should be used for addressing 
some of the infrastructure problems, rehabilitating some of the 
facilities, taking care of lands and projects that have already 
been developed over the years. That may be one of the 
structural things that is a problem with the fund right now but 
certainly those funds should be used for that as well.
    On the acquisition side there are still in many States 
including the State of California active acquisition programs 
that are necessary in certain areas especially in some urban 
areas where there are recreational facilities that need to be 
built and land that needs to be acquired to buy those 
facilities, greenways that need to be developed in urban areas 
to provide the kind of atmosphere for people growing up in 
urban environments that they should have for their health, an 
inspiration and vitality that was mentioned in the original 
fund.
    So I think that there is still a mix but clearly the 
emphasis speaking on behalf of the State of California needs to 
be to address some of these recreational infrastructure 
problems and worn out facilities, many of which were developed 
with the Land and Water Conservation Fund in the first place.
    Mr. Tindall. Congressman, if you look at the first page of 
our survey, which is actually part of our testimony, the rank 
order, if you will, is new construction--almost 50 percent of 
the resource needs. Rehabilitation, as Mr. Murphy is 
suggesting, is second, 30 some percent of resource needs, and 
land acquisition is about 18 percent of fiscal resource needs. 
That is the rank order at the municipal level, the local level.
    Mr. Cove. From the industry point of view, we see the 
capital investment whether it is for land acquisition or for 
some of the more infrastructure rehabilitation, in some cases 
development, it is capital investment and it is fundamentally 
not operations. We perceive this fund being used for operations 
to be sort of a black hole. That can go anywhere and we would 
not be able to support that kind of--but in terms of the land 
acquisition we also see this as much more real toward people 
than toward land. The land is to be used, particularly in the 
stateside, for all sorts of very close to home recreation and 
conservation needs that in the context of the discussion that 
the community started with about how much land is owned by the 
Federal Government in the West, etc., we see that as a 
completely different type of land acquisition than the 
stateside acquisition would be able to deliver.
    Ms. Beck. I also think you need to look at the pattern, 
particularly in the urban and suburban areas where when kind of 
a white elephant comes on the market and happens to have some 
historical significance they look to the local park district 
and it is usually an opportunity but unfortunately it is a 
pretty expensive opportunity in order to take a historic 
building and restore it and make it available as a public 
facility and so those funds are often capital intensive.
    Mr. Hefley. Thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you. The gentlelady from the Virgin 
Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. I think my 
questions have been pretty much answered through the clear 
testimony and the questions of my colleagues. I would just like 
to make a comment and respectfully suggest that with regard to 
the map if there were more greenspace east of the Colorado that 
may help to begin to eliminate some of the social ills that 
tend to predominate in our cities and that is my comment.
    Mr. Hansen. Thank you. The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. The 
acquisition program requires that--for the States requires a 
matching fund of 50 percent. Is that correct? And is the same 
matching fund the requirement for the improvement programs or 
for the rehabilitation programs?
    Mr. Murphy. That is correct.
    Mr. Romero-Barcelo. Although I think that the acquisition 
program State grants are funded obviously you can acquire more 
land with the same amount of money, Federal money, than you can 
for the Federal land acquisitions but what I have noticed in my 
own personal experience, and I might be wrong, is that usually 
most of the State parks are not as well maintained as some of 
the national parks, most of the national parks. Am I correct in 
that observation or have you had a different experience?
    Mr. Murphy. Well, it is certainly not the case in 
California and in fact that National Park Service and the State 
of California, we have joint management agreements where we 
have lands that are contiguous to each other. In California the 
same people that founded the National Park Service founded the 
State park system in California and I would say that there is 
no difference. It may be a difference in degrees depending upon 
funding from one year to the other or one park unit to the 
other but I do not think there is any general large scale 
difference between the two.
    I think that all our park systems especially when you look 
at it that this is a system of nationwide parks and you do not 
make a distinction between national and State and local, we 
think of it in terms of a system of parks. We certainly all do 
suffer from the failure of the infrastructure just as we are 
nationwide looking at failure of the infrastructure in this 
nation and that is probably the greatest problem nationwide for 
all of our parks is the failure of the infrastructure and the 
need to address maintenance backlogs and those types of things.
    Mr. Romero-Barcelo. I do not know much about California 
because I am from Puerto Rico and I do not travel very often to 
California.
    Mr. Murphy. I understand.
    Mr. Romero-Barcelo. But we in the eastern area have found--
what I have said is from my observations. I have not made an 
analysis of it but it seems that the State parks are getting 
deteriorated faster and that there seems to be less controls 
about internal activities within the park or encroaches upon 
the park and in a lot of State parks you find the facilities 
that are not really usable because they are torn down or broken 
much more so than the national parks. Do you have any 
information about this or do you know anything about the 
situation in California? Am I correct? Am I wrong?
    Mr. Murphy. Well, your question was--your observation is 
that facilities or resources in your State parks are more 
deteriorated than Federal systems.
    Mr. Romero-Barcelo. Right. I do not know. Maybe I am wrong. 
If I am wrong--you said I am wrong as far as California 
obviously.
    Mr. Murphy. When I mentioned that new facilities and the 
rehabilitation facilities are constituted by 80 percent of the 
priorities it is local governments which make those 
investments. I do not think--I would not want to leave the 
impression with the Subcommittee it is because the States or 
the territories are not taking care of resources to the extent 
that they can. Things wear out and they wear out quickly 
depending on how many people use them. The Federal people have 
the same dilemmas.
    I think we need to understand how many--I mean what the 
pressures on State and local governments today to pick up more 
and more cost for things that range frankly from welfare to 
security to juvenile justice. I mean these are very expensive 
programs or services where we are in the midst of a great 
national action to push some of those costs elsewhere. That is, 
frankly, impacting the money available to take care of public 
park and recreation resources.
    Dealing in southern California with immigration costs for 
education, health care and things like that in other parts of 
the country, that takes money and sometimes that money comes 
out of State or county park and recreation budgets.
    Mr. Romero-Barcelo. Well, maybe then we should be thinking 
in terms of providing funding for rehabilitation and 
maintenance over the existing ones until they get up to a 
certain level rather than thinking of new acquisitions when the 
existing ones are not at the level that we should have them.
    Mr. Murphy. Well, under certain circumstances you can use 
the Land and Water Conservation Fund for rehabilitation if the 
resources degraded to such a point that it is unserviceable. 
And our view is that restoration is just as good a conservation 
initiative as going out and doing something new. It is, and we 
have not talked much about this, I briefly mentioned the urban 
park and recreation recovery program which is a non-acquisition 
program and may apply to the conditions that you have in your 
area.
    Mr. Romero-Barcelo. What I am trying to point out is 
perhaps we should be more concerned at this point in time with 
rehabilitating and putting parks in the proper condition before 
we think of further acquisitions. I am just evaluating what we 
should be doing.
    Mr. Murphy. Well, our view is, and this is where the Land 
and Water Conservation Fund has such beauty, if your community 
in 1995 has one priority, it may be an opportunity to conserve 
land, in 1997 it may have a rehabilitation need. In 19 whatever 
it might have a new cap, a new facility need. So there needs to 
be flexibility to State and local governments to deal with 
those priorities recognizing that they will change over time.
    Mr. Romero-Barcelo. Thank you, my time is up. I am sorry, 
go ahead.
    Ms. Beck. I would just like to comment that it seems the 
supposition is that the state of the parks you have observed is 
because of lack of maintenance. It could be from overuse. In 
the county of Cook outside of Chicago, well, actually Chicago 
resides in the county, there is a county forest preserve 
system. The picnic permit program there begins on January 1. 
They issue the picnic permits for the coming year.
    There is a tradition there to have people camp outside of 
the county building in January in Chicago in order to get 
picnic permits. That is how scarce the amount of space is and 
how great the need is.
    Mr. Hefley. [presiding] Thank you very much. Mr. Delahunt.
    Mr. Delahunt. I have no questions.
    Mr. Hansen. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. My State of Michigan 
has been a beneficiary of both State grants and the Federal 
conservation component of the Land and Water Conservation Fund 
and I think both are extremely important. I do not think it is 
really a question of playing one against the other although I 
do know the appropriations for the State grants have been 
zeroed out.
    But I think that we really have to approach people within 
the Congress and make sure that they do not zero them out. I 
think when we set this money aside back in '64, '65, these were 
earmarked funds and I always felt that like many other of the 
special funds here that they should be taken totally off budget 
and used for the purpose for which they were originally 
intended.
    I know that is easier said than done but I really believe 
that there is so much need in the country, take my own State of 
Michigan, if we were to take the Land and Water Conservation 
Fund and each year spend all that was available for both the 
State grants and the Federal grants that we would still have 
some unmet needs in the State of Michigan.
    We have done a lot with both areas. We have preserved the 
habitat of the cerulean warbler, which was on the verge of 
extinction, up there because of this fund. We were able to 
acquire Grand Island, an island the size of Manhattan Island, 
which was going to be clear cut by one of the timber companies 
up there that would acquire that because of this.
    And in so many areas it seems to me that--I for years have 
been in the Congress now, this is my 21st year in Congress, and 
I have always felt that we should be looking at the needs and 
having traveled throughout the country, traveled throughout my 
State, feel that if we were to take this off budget and spend 
all the money we would still not meet all the needs.
    I was sponsor of a bill in Michigan which became law for a 
bond for recreation purposes, and in that bonding I made sure 
we had an amendment in that much of it was used for what we 
call in Michigan up north, but also to acquire land in and near 
cities for recreation there. I think that is the balance we 
tried to achieve.
    But, Mr. Murphy, let me ask you, is the real problem with 
the Land and Water Conservation Fund that Federal agencies are 
getting too much money or is it that insufficient annual 
funding puts undue strains on your agency, your State and local 
colleagues, and your Federal partner to protect the resource 
lands we so urgently need?
    Mr. Murphy. I certainly do not think the Federal side is 
getting too much money. It is just that right now the 
Appropriations Committee has decided not to fund the stateside, 
it is all of the money is going to one side and not the other, 
and so what I would argue for is that there is just not enough 
of the $900 million that is allowed under the law being 
appropriated for the fund so that there can be better 
distribution of the funds.
    I think the decision in itself is fundamentally unsound and 
I think it is our responsibility, my responsibility as the 
leader of Parks and Recreation in the State of California and 
the stakeholders and the constituency to prevail upon the 
Members of the Congress to convince them otherwise. We have 
that job to do and I believe we will be successful but I do not 
believe that it is that the Federal Government is getting too 
much. I mean we are talking about a $900 million fund and all 
of it is going to the Federal side, about $158 million, and 
that is just patently not fair.
    Mr. Kildee. And I would march with you to the 
Appropriations Committee to urge that they do that. I think 
that Congress--the whole Congress is responsible for this. We 
have to approve all the allocations of funds. But I certainly 
agree that the States should be getting what is intended to be 
your allocation when this was set up.
    And I would agree, I do not think we necessarily do that by 
robbing Peter to pay Paul on this, that we should make sure 
that both the State allocation and the Federal allocations are 
addressed. I have asked to be drafted a bill to take the Land 
and Water Conservation Fund off budget so that money would be 
used for its intended purpose.
    Now I know that that is going to be difficult to pass but I 
am still getting the bill drafted and I will introduce it. 
Perhaps it might not take effect right away or it might not 
pass right away but by the year 2002 we are hopefully going to 
have the budget balanced and maybe we can start seriously using 
these funds for the intended purpose. Hopefully we could do it 
before then but in the meantime I certainly agree with you, Mr. 
Murphy, that we should be taking care of those State 
allocations and I will be urging my colleagues in Congress to 
do that but not at the expense of the Federal allocations, just 
allocations for both areas. Thank you very much.
    Mr. Tindall. I would just say, Mr. Kildee, we would welcome 
your march to the Appropriations Committee. But I would hope 
your route would go through the Budget Committee because the 
appropriators in this area very legitimately are dealing with a 
constrained allocation to function 300. In our judgment, this 
nation with OCS resources ought at minimum to be able to put 
another $.5 billion into that allocation, another half a 
billion, with an assumption that that will go to the Land and 
Water Conservation Fund.
    Others will quibble about the amount, but let us start with 
that and let us convince Mr. Kasich and others that it is in 
fact good business. We think it will return to the national 
treasury a great deal of benefit over the long-term.
    Mr. Kildee. I agree. I served on the Budget Committee for 
six years and I know the budget process very well, but I do 
know that even within that budget process the Appropriations 
Committee, when they do sit down making their distribution that 
there is still a great deal of flexibility there and we used to 
decry that sometimes but I will certainly go to the Budget 
Committee too but there is still flexibility when they make 
those allocations under the Budget Act. Thank you.
    Mr. Hefley. Does anyone have second round questions that 
they would like to ask at this time? I would just ask one quick 
question of the panel and then we will excuse you. We have done 
a good deal of talking today about the original intent of this 
legislation. The original intent was for outdoor recreation for 
all Americans but in recent times with the change in the 
funding and so forth it seems to be--we seem to be spending the 
money on habitat preservation.
    Now I spoke to a group of environmental groups that were in 
a convention not too long ago and some in that group said that 
for the public lands man should not be there at all. In other 
words, 100 percent preservation, not recreation. Man should not 
recreate on the public lands.
    Now do you all in your positions, particularly you, Mr. 
Murphy, running a major park system, but do you all find that 
kind of tension between those two goals?
    Mr. Murphy. Those kinds of tensions have always existed. 
This argument has raged for years in this country, the 
preservationist concept versus the conservationist concept. But 
just let me speak for a minute from my point of view as a park 
director and someone that has been in this business for 20 
years and that is involved in preservation of habitat and 
natural areas as well as providing outdoor recreation for 
people.
    For me, this is all about providing connections and what I 
mean by that is that humanity, human beings, need a connection 
to their world and to their environment. And to directly answer 
your question, I do not believe in what I would think is the 
more extremist point of view of some of my colleagues in the 
environmental community that man should not be in certain 
areas.
    I think certain areas certainly should be controlled and 
managed if there are sensitive habitats and perhaps there are 
certain kinds of activities that should not be allowed. I think 
that goes without saying. But I also think it is extremely 
important to recognize that the connections that are provided 
for human beings through their interaction with the environment 
is a spiritual and psychological process that binds us to the 
earth, to the universe, and teaches us things about ourselves 
and about the world that we would not otherwise understand.
    That is why it is important to set aside these areas. My 
family recreates in the John Meir Wilderness every year. That 
is our annual trip. And I cannot tell you the bonding that 
takes place between myself and my children and the spiritual 
refreshment that accrues as a result of that interaction. For 
me, that is what it is all about.
    So we are conserving and in some cases protecting these 
areas not only for the sake of the animals and the flora and 
fauna that we are protecting but also for the sake of the human 
interaction with these areas as well. And I think that making 
sure that those connections are provided for is extremely 
important and I think taking humanity and man out of the 
equation is a dangerous approach to that. That is my opinion.
    Mr. Tindall. I think, Congressman, that to the extent that 
you underfund or do not fund the stateside of the Land and 
Water Conservation Fund, and the States and local governments, 
you will continue to skew its purposes. In fact, because the 
State and local governments have focused on access for man and 
the development of basic facilities--such things as wastewater 
treatment facilities, for example.
    You cannot have large numbers of people coming in to 
natural or naturalistic environments and not provide for basic 
human services. Trail heads, all of these things that encourage 
and aid access are eligible for Land and Water Conservation 
Fund assistance. And that has been the strength and the 
priority of State and local park and recreation systems from 
the outset.
    Have we purchased a lot of land? Yes, we have purchased a 
lot of land and some of that is strictly habitat. And some of 
it is for a quarter acre of land in downtown Chicago or 
Glenview. We are not prepared to put a weighting or evaluation 
on projects. One of the greatest Land and Water projects I have 
ever seen was maybe a tenth of an acre park next to a Russian 
Orthodox church in Juneau, Alaska.
    Anyone can plan a 500-acre park, but to plan a quarter 
acre, a tenth of an acre park, you have real challenges! So we 
bring in people. We do not agree that we should lock up land, 
however you choose to protect it. There are certainly precious, 
more fragile lands that need to be dealt with very carefully.
    But it is interesting. I do not believe that endangered 
species land acquisition was an eligible activity through the 
Land and Water Conservation Fund. It was added later, and if 
you look at how the Fish and Wildlife Service has fared, if you 
will, after that switch in the law the Fish and Wildlife 
Service was getting a large percentage of the annual Federal 
mix of moneys.
    It is not good or bad. It illustrates that we need a 
recreation resource trust or a revised view of the Land and 
Water Conservation Fund that provides options for investment in 
rational land uses and land conservation.
    Mr. Cove. As my colleagues mentioned, obviously this 
tension has gone on for some time but even in the recreation 
industry we regard it as a good tension. It is not bad as 
historic arguments go on and frankly even some of my colleagues 
in industry, if they went too far on the people side it would 
be bad for business.
    The habitat preservation is a fundamental element of the 
outdoor experience. Whether you step in it or walk in it, at 
some point you appreciate it, value it, and live off of it 
because if you do not preserve the habitat the quality of the 
outdoor experience will be diminished over time. So it is a 
tension that we have no problem with addressing on a regular 
basis and would hope that it would continue to be there.
    Ms. Beck. I also believe that there is not one simple 
answer. It complicates management of a site. We have eight 
threatened and endangered species on 123 acres in a large urban 
area and we have been able to manage both public access and 
habitat and species preservation at the same time.
    I do not know what the future holds. I think there are some 
areas where the public intrusion might in a specific case be 
endangerous to some species but certainly the vast majority is 
really just a management issue and a careful management issue.
    Mr. Hefley. Thank you very much. We appreciate your 
participation this morning. It has been very helpful. Our 
second panel is made up of Katherine Stevenson, Associate 
Director of the National Park Service. Good morning and 
welcome, and we will turn the time over to you.

STATEMENT OF KATHERINE STEVENSON, ASSOCIATE DIRECTOR, NATIONAL 
                          PARK SERVICE

    Ms. Stevenson. Thank you very much. Thank you very much for 
inviting me to testify. I have a written statement I would like 
to be entered into the record, please.
    Mr. Hefley. Without objection.
    Ms. Stevenson. Thank you very much. The Land and Water 
stateside has a truly unique legacy in the history of American 
conservation and recreation. After the passage of the Act in 
1964, more than $3.2 billion in Federal assistance has been 
invested in some 300,000 sites and 37,000 projects. I should 
say that this amount, as the people who have spoken before I 
have, has been matched so that something like $6.5 billion has 
been invested in park and recreation on the Federal and 
stateside.
    Appropriation levels peaked in the late 1970's reaching 
almost $370 million in 1979. In more recent years, 
appropriation levels ranged in the mid to low $20 million 
range. In fiscal year 1996 the Administration proposed funding 
in the amount of $25 million. The Congress appropriated zero 
dollars.
    The report language that year said no funds are provided 
for new grants and the managers intend that no funds will be 
provided in the future. Following that lead, in 1997 the 
Administration requested nothing for the program and Congress 
appropriated nothing. That was in keeping with the 
Administration's ongoing efforts to balance the budget as well 
as the direction of the Congress.
    There are no funds proposed for fiscal year 1998, nor are 
there any plans to request funds in the foreseeable future. In 
the report language accompanying the 1997 appropriation, 
Congress indicated that we should use the administrative funds 
for the closeout of the State grants program. In just a few 
minutes, I am going to talk about that closeout but for now I 
would like to look at the rewards of a truly visionary program.
    The facilities that the $6.5 billion bought are just on the 
street, across town in the intercity, in virtually every nook 
and cranny of our country. The parks and projects serve every 
segment of the public. Millions of Americans have walked, 
jogged, picnicked, hiked, biked, fished, hunted, golfed, or 
played ball in at least one of these areas. These are the 
destination parks for families of campers and hikers, parks 
where kids learn baseball and swimming and appreciation of 
nature.
    Clearly, the Land and Water Fund has had a broad impact on 
outdoor America. As a result of the Act and its funding, States 
bought land and improved recreation areas. They also 
established their own scenic river and recreational trail 
systems and created new State programs to enhance recreation 
opportunities.
    The $6.5 billion was well invested, very well invested, and 
protections were put in place to protect that taxpayer 
investment. With Section 6(f) of the Act Congress guaranteed 
that all property acquired or developed with this money must be 
maintained in perpetuity for public recreational use regardless 
of future funding efforts. Of course, as needs changed 
conversions are permitted when the property is replaced with 
another of at least equal fair market value and usefulness.
    The approval of these conversions and the protection of the 
Federal investment is an essential role played by the National 
Park Service in concert with the States. As we move out to 
close out the grants project selection, we will also establish 
an ongoing process to protect the properties in the long-term.
    At the direction of Congress to close down the grant 
process, we are planning to terminate the obligation process by 
August 30, 1997. All active projects with unexpended balances 
will be terminated on September 30, 2000. We then plan to 
expend our energies on the protection of the 30,000 assisted 
sites with a much reduced but committed grant staff.
    We believe very strongly in the legacy of the Land and 
Water Conservation Fund and we are doing our best to protect 
that investment. Thank you very much. I will be happy to answer 
any questions you may have.
    [Statement of Ms. Stevenson may be found at end of 
hearing.]
    Mr. Hefley. Thank you, Ms. Stevenson. I asked the question 
of the other panel, let me ask it of you. Do you think that the 
funds from this fund should be able to be used for other things 
other than acquisition, in other words, for infrastructure, 
operation, those kinds of things?
    Ms. Stevenson. I think repair for sites, particularly those 
purchased with Land and Water money or assisted originally is a 
very good idea. I think if we get into maintenance with this 
money, as I think one of the previous witnesses called it a 
black hole, and I think that is probably true. I think it is an 
expenditure that no one could support.
    Mr. Hefley. The Administration has stated that funding for 
the highest--that it is seeking funding for the highest 
priority projects and has no funds to seek, no plans to seek 
funds for the State Land and Water Conservation Program in the 
foreseeable future. Let us consider a minute the 
Administration's request for the funds for the Appalachian 
Trail land acquisition. This year you have requested an 
additional $4.2 million and in '95 the Administration spent 
$4.2 million to protect a total of two miles of trail for an 
average cost of over $2 million per mile.
    In fact, in 1995 the Administration purchased land in seven 
States which the trail does not even cross. Now are these the 
high priority types of things you are talking about and how 
many such high priority Federal needs are there which are more 
important than the State needs?
    Ms. Stevenson. I am not at all familiar with the land 
acquisition for the Appalachian Trail so I cannot comment on 
that. But what we do face is opportunities where willing 
sellers within authorized boundaries for national parks are 
wanting to sell land that we believe is very crucial to the 
protection of the park. Those are the vast majority of the 
funds that we are asking Congress for. And those are usually 
the projects that we hear most from congressional Members about 
why aren't we protecting significant battlefield lands, why 
aren't we protecting significant wildlife habitat within 
national parks.
    And, you know, it is a very difficult balance. I cannot say 
that any one of these, and I think the panel is really in the 
same position, it is a very difficult balance between 
significant lands authorized within parks and significant lands 
used for recreation purposes on the stateside. The Congress has 
a very tough row to hoe. I do not envy you in trying to make 
choices between what things to fund and what not to fund.
    Mr. Hefley. Thank you very much. The gentleman from 
American Samoa.
    Mr. Faleomavaega. Thank you, and welcome, Ms. Stevenson, 
before the Subcommittee. I am just trying to see if I get the 
picture properly here. We have just had members from our 
community testifying that it is a disaster on the part of the 
Congress and the Administration not to provide funding for this 
very important program, yet on behalf of the Administration are 
you just simply following because the Congress definitely has a 
position that they do not want to fund this program anymore or 
do you feel that you are in agreement with the position that 
the Congress now takes in view of the funding aspects of the 
program?
    Ms. Stevenson. As I said before, it is not an easy balance. 
The Administration is trying very, very hard to balance the 
budget from its end. In order to do that, we have to make 
choices. The Land and Water Fund is a very significant program, 
always has been a significant program, but we are faced with 
having to make choices of where to spend the very limited 
funds, where to ask Congress for money.
    In those cases, we have come down on the side of asking for 
money particularly within authorized boundaries of parks and of 
course other Federal lands. It is not an easy choice. That is 
not to say that we do not believe that this is a terrific 
program. We do. And we know the States have terrible needs but 
we are sort of stuck as you all are.
    Mr. Faleomavaega. So basically in terms of priorities 
realizing also that $900 million is not chicken feed as far as 
trying to provide--I want to ask another related question to 
this. The Congress on a bipartisan basis established this fund. 
It was not called a trust fund, it was a set aside and whatever 
funds or money that we got from these sales of the oil and gas 
leases which amounts to about $900 million was to go to the 
Land and Water Conservation Fund.
    We are about to debate a very interesting position now 
taken by the Administration. This involves the State 
Department, and the State Department is now proposing that we 
are going to charge every American that calls in for passport 
information and by getting this amount of money which the State 
Department expects to obtain about $595 million to assist in 
offsetting some of its resource needs within the agency or 
within the Department of State and it is going to be an 
interesting debate in the Congress whether or not this is the 
proper way that we go about funding or provide funds for agency 
activities.
    And in a similar fashion I notice that we did this 
previously in setting aside this $900 million trust fund. We 
have expended over $3 billion in the last 30 years and of 
course we can give the numbers to justify the fact that this 
was a very successful program as far as the States and 
territories are concerned.
    My question is should the Congress allow this kind of 
thing, to allow each agency to go ahead and make charges and 
then reprogram the money for agency use and the Congress should 
not have any say on how that money should be utilized?
    Ms. Stevenson. As you know, we have a fee program in 
national parks and we are convinced that Americans who want to 
use national parks are willing and excited about paying fees 
that the money stays in the national parks. In terms of the 
$900 million when you talk to Members of Congress who are on 
the Budget Committee what they say is it is all money. It does 
not matter whether it was set aside, we use it for offset of 
the budget, of the deficit.
    And certainly esoteric kind of discussion is above my head, 
I have to admit, but I believe it is all money they say and so 
it is hard to set aside for any individual purpose. And I think 
I will reserve my comments on the State Department.
    Mr. Faleomavaega. So as a matter of our national policy 
basically despite the concerns that have been expressed earlier 
by some of our leading citizens out there in the country it 
seems that basically as far as the Congress and the 
Administration is concerned the Land and Water Conservation 
Fund is axed.
    Ms. Stevenson. It seems so, sir.
    Mr. Faleomavaega. Simply because of higher priorities.
    Ms. Stevenson. Yes, sir.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hefley. The gentleman from Massachusetts.
    Mr. Delahunt. Historically, the Land and Water Fund 
received about $900 million annually?
    Ms. Stevenson. No. Actually I have a copy and I will be 
happy to provide for the record the list of all the 
appropriations year by year.
    Mr. Delahunt. I am talking about receipts.
    Ms. Stevenson. Oh, receipts. I believe that is correct.
    Mr. Delahunt. Then--oh, can this--you have the last two or 
three fiscal years. How much is going to the Federal side?
    Ms. Stevenson. Federal side, total bureaus in 1996 was $138 
million.
    Mr. Delahunt. And how much stateside?
    Ms. Stevenson. That year was zero.
    Mr. Delahunt. That year was zero?
    Ms. Stevenson. 1996 was zero.
    Mr. Delahunt. So the remaining, subtract $138 million from 
that $900 million, went to the deficit reduction.
    Ms. Stevenson. That is right.
    Mr. Delahunt. And has that been in the past two or three 
years?
    Ms. Stevenson. When you say past two or three, if you are 
saying 1995 there was $216 million that went to the Federal 
side and that year there were $25 million in State grants 
rounded up. And then the balance went to deficit reduction.
    Mr. Delahunt. So the reality is that for some time now that 
$900 million has been--we have been underpaying----
    Ms. Stevenson. That is correct.
    Mr. Delahunt. [continuing]--purposes that would--we were 
provided for the----
    Ms. Stevenson. The highest appropriation I believe was in 
1978, which was $805 million stateside and $681--I am sorry, I 
am not right there. That was $175 million to State grants. But 
I would be happy to provide this for the record. You can look 
at it.
    Mr. Delahunt. Maybe you could help me with this. Could you 
just walk through how you plan to close out the State and 
what's involved here?
    Ms. Stevenson. Yes. This year----
    Mr. Delahunt. Let me just add one other question. I presume 
that you are working in individual States with this close-out 
thing?
    Ms. Stevenson. Yes, we are working--actually we are working 
with NUSARLO, which is the organization of States so that we 
have a single contact, but what we plan to do is terminate the 
obligation process, which means we will not be obligating any 
more funds as of August 30, 1997. And then that gives the 
States from then until the year 2000 to get rid of any 
unexpended balances, anything that they might have on the books 
from a project that has failed or something that is not doing 
very well that they can shore up, get a match, whatever is 
necessary. And that will be all done by September 30, 2000. So 
that is pretty much a three-year process for them to totally 
get rid of all of the--expend all of the money that is on their 
books right now.
    Mr. Delahunt. Thank you.
    Ms. Stevenson. You are welcome.
    Mr. Hefley. Thank you, Ms. Stevenson. We appreciate you 
being here and it has been helpful. Thank you very much.
    Ms. Stevenson. Thank you so much.
    Mr. Hefley. The committee stands adjourned.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

Testimony of Donald W. Murphy, Director, California Department of Parks 
 and Recreation; and President, National Association of State Outdoor 
                      Recreation Liaison Officers

    It is a privilege to be here today to talk about the vital 
importance of the Land and Water Conservation Fund for state 
and local outdoor programs.
    By way of introduction, let me tell you that I sit here 
wearing several hats. In 1991, Governor Pete Wilson appointed 
me Director of California State Parks, the nation's largest 
state park system, with more than 1.3 million acres and a 
budget of approximately $180 million. I have been with 
California State Parks since I entered as a park ranger cadet 
in 1980.
    Additionally, I serve as president of the National 
Association for State Outdoor Recreation Liaison Officers 
commonly referred to as NASORLO, the organization of those 
state officials whose responsibility it is to apportion LWCF 
moneys in their respective states.
    Lastly, I am a co-chair of Americans for our Heritage and 
Recreation, a newly formed coalition of LWCF stakeholders 
dedicated to securing more stable funding for conservation and 
outdoor recreation. This new organization represents a broad 
spectrum of individuals and ideas, from the Wilderness Society 
to the Sporting Goods Manufacturing Association, brought 
together with the realization that the restoration of LWCF for 
its original intention is vital for a better America.
    This is what I want you to understand from me today. A 
program that has worked so well for so many years has gotten so 
far off track we need to get a crane to put it back in place.
    I am not here to denigrate the federal funding side of the 
LWCF in favor of the state funding side. The two are necessary 
parts of a whole, and one should not exist without the other. 
But since I was invited here to speak on the importance of the 
stateside funding, I wish to confine my remarks to that area.
    When the Land and Water Conservation Fund became law in 
1965, this was its statement of purpose:
    ``The purposes of this part are to assist in preserving, 
developing, and assuring accessibility to all citizens of the 
United States of America, of present and future generations, 
and visitors who are lawfully present within the boundaries of 
the United States of America, such quality and quantity of 
outdoor recreation resources as may be available and are 
necessary and desirable for individual active participation in 
such recreation, and to strengthen the health and vitality of 
the citizens of the United States by (1) providing funds for, 
and authorizing federal assistance to, the States in planning, 
acquisition, and development of needed land and water areas and 
facilities, and (2) providing funds for the Federal acquisition 
and development of certain lands and other areas.''
    The last portion of this statement is most important for my 
purposes here today. As the law was written, one of the first 
principles behind the Land and Water Conservation Fund is 
assistance to the states. This need was widely recognized on 
both sides of the aisle, and in prior Republican and Democratic 
administrations.
    In the years following this Act's passage, the states 
benefited greatly from the LWCF. But with the coming of the 
1980s, this changed dramatically. Support for state and local 
programs plummeted. In the last two fiscal years, there were no 
LWCF appropriations for state and local matching grants.
    California is a case in point. In the 1970s, the Golden 
State benefited greatly from the LWCF averaging a little more 
than $11 million each year. Since then, however, funding 
dropped as quickly as a rock off the Golden Gate Bridge. In the 
1980s, the average LWCF annual appropriation for California 
fell to less than $7 million.
    So far this decade, we've fared even worse, averaging about 
$1.4 million--that's a mere 10 percent of the funding we 
received in the 1970s.
    The negligence is as bipartisan as the creation of the act 
itself, and spans administrations of both parties.
    In the meantime in California, our population has 
increased, placing even more pressure not just on the 264 units 
of our beautiful State Park system, but on regional and local 
parks as well. Increased population means more demand for more 
parks.
    California is not unique in this. Attendance in state parks 
around the country rose by more than 30 million annually 
between 1987 and 1992. In his 1995 report to Congress on the 
LWCF, National Park Service Director Roger Kennedy pointed this 
out well. He wrote:
    ``States continue to support this program and depend on its 
annual apportionment to supplement existing funding sources in 
providing recreation opportunities to their communities. In 
many local instances it constitutes the only means of financing 
much-needed recreational opportunities for its populace, 
including youth-at-risk, senior citizens, the economically 
disadvantaged, and those with disabilities.''
    There are many debates in these corridors, and even in this 
subcommittee, about the role of federal government in 
preserving public lands. We experience this in Sacramento as 
well, I assure you.
    In another way, therefore, I can't stress enough the 
importance of LWCF for states and local communities. In short, 
it gives more power to the people, by placing the funds closer 
to home. Here in Washington, you refer to it as ``states' 
rights.'' Thousands of miles west of here, at the state 
Capitol, they refer to it as ``local control.''
    The benefits of this are numerous. More people are involved 
in the decision-making. Communities must match the LWCF grant, 
so they have incentive and a goal that can be attained. In many 
areas, problems in a state or community are best answered by 
those who live in that state or community.
    In its day, the LWCF has built ballparks in urban settings 
like Oakland, it acquired Martin Luther King, Jr.'s boyhood 
home in Atlanta, and it helped finish off the Appalachian 
Trail. Over the life of the program, stateside funding has 
financed more than 8,500 acquisition projects covering more 
than 2.3 million acres, and funded 28,000 outdoor recreational 
facility developments.
    Thirty some-odd years ago, the creation of the Land and 
Water Conservation Fund was a bipartisan measure, and that 
makes sense even today. It's an issue that's broad enough for 
all to accept, and one that crosses many boundaries. That's why 
such a broad coalition has come together, as I said earlier, to 
work for it.
    The restoration of state and local LWCF funding should be 
an easy decision for you, and it is an easy decision that will 
immediately show many rewards throughout the country. There is 
no controversy in restoring state and local support in LWCF, 
but I can assure you there will be if this noble effort is 
abandoned.
    As this own subcommittee's oversight plan states, ``the 
need for public outdoor recreation space is greatest in urban 
and suburban areas of this country. For these reasons, 
continued exclusive focus on federal land acquisition cannot be 
justified.''
    I couldn't have said it better myself. Thank you very much.

                                ------                                


   Statement of Thomas Cove, Vice President of Government Relations, 
                Sporting Goods Manufacturers Association

    Good morning, Mr. Chairman. My name is Thomas Cove and I am 
Vice President of the Sporting Goods Manufacturers Association 
(SGMA). SGMA is the national trade association for producers 
and distributors of athletic equipment, footwear and apparel.
    I welcome the opportunity to testify this morning and 
commend the Committee for its decision to hold a hearing on the 
stateside of the Land and Water Conservation Fund. My industry 
and the broader recreation community are encouraged by the 
attention this hearing brings to this important program.
    In 1994, I was honored to serve on the National Park 
Service Review Committee for the Land and Water Conservation 
Fund. I understand our report has been made available to the 
Resources Committee--I urge you to look at it closely as it 
represents the results of countless hours of discussion and 
consensus building. As the sole industry representative on the 
review committee, I was extremely impressed by the caliber of 
my colleagues and new thinking they brought to problems facing 
the stateside of the Land and Water Fund. I continue to endorse 
the report's basic finding, namely, that a reinvigoration of 
the LWCF vision, whether in its current programmatic form or 
otherwise, is vitally needed in order for the country to save 
its cherished heritage of open spaces and parks.
    Within my industry, we regard the experience of a well-
funded stateside Land and Water Conservation Fund to be a 
demonstrable success. The Fund allowed a great diversity of 
land to be protected and created a significant inventory of 
recreational opportunities for citizens in every state. 
Thousands of local parks and facilities were developed under 
the state assistance program, providing tangible and intangible 
benefits to generations of Americans. Not insignificantly, 
beyond the actual funds it provided, the Fund's incentives 
created countless partnerships that have resulted in innovative 
programs to protect habitat, preserve historic sites and 
provide recreation.
    The Land and Water Conservation Fund was a promise made to 
the American people beginning in 1965 that has delivered a 
return on investment that any Wall Street financier would be 
proud to call his/her own.
    Sadly, much of the promise was broken in recent years when 
funding for the stateside of the Fund was cut substantially, to 
the point of its virtual elimination today.
    We strongly urge the Committee to take action to revitalize 
the LWCF ideal. Technical and financial assistance to state and 
local conservation and recreation has a long history of 
bipartisan support. The program was recommended by the Outdoor 
Recreation Resources Review Commission in the 1960's, President 
Reagan's Commission on Americans Outdoors in the 1980's, and 
the National Park Service Review Committee in 1994 and yet 
today is threatened with extinction.
    Let me take a moment to highlight our view of the value of 
the state assistance program.
    State and local parks are where the vast majority of 
Americans recreate day in and day out. Though most Americans 
might love to visit our showcase national parks regularly, they 
are unable to for reasons of economics, geography, or competing 
leisure alternatives. Most Americans recreate close to home, in 
local, regional and state parks. Whether for toddlers in a 
playground, teenagers on a ball field, or senior citizens on a 
nature trail, easily accessible recreation opportunities 
contribute significantly to quality of life for individuals, 
families and communities across the country.
    Participation in recreation is valued not just for 
enjoyment but because Americans know it leads to improved 
physical and mental health, better appreciation of nature and 
the environment, and stronger, shared values.
    Providing recreation opportunities close to home is more 
imperative than ever. In its research report titled Recreation 
in the New Millennium, the Recreation Roundtable found that the 
greatest barrier to participation in outdoor recreation in 
America in 1995 was lack of discretionary time. Twice as many 
people cited time versus money as a major hurdle to outdoor 
recreation participation. Local recreation alternatives speak 
directly to Americans' need to carve more time out of the day.
    At the same time, the quality of recreation experiences in 
critical areas is diminishing. In the same Recreation 
Roundtable study, Americans living in large, urban areas are, 
as a group, the least satisfied with their recreation 
opportunities. The study also found that residents of America's 
largest metropolitan areas participate on average in fewer 
recreation activities and on a less frequent basis than other 
Americans.
    A 1995 Washington Post article, entitled ``No Place to 
Play'', recounts the tragic story of two young girls who died 
after playing in an abandoned car in Southeast Washington. The 
underlying theme of the story, as articulated by many residents 
of the girls' neighborhood, was the lack of opportunities for 
local children to recreate in a safe, enjoyable way. Too often 
this is a way of life in low-income urban neighborhoods.
    Images of unscathed community gardens and parks located 
next to torched buildings and looted businesses in the 
aftermath of the 1992 Los Angeles riots illustrate the value 
urban communities place on protected open spaces.
    In suburban America, conflicts over usage of parks and open 
space are increasingly commonplace. At the beginning of every 
season, soccer and football league administrators do battle 
over access to precious fields. Primary school parents view 
junior high and high school sports programs as a threat to 
their children's ability to get field time. Women's sports 
proponents are becoming more vocal, appropriately so, about 
receiving their fair share of choice locations and practice 
times.
    Lack of fields, courts and facilities can limit the number 
of young people who are given the opportunity to play sports. 
Rarely are the ones who miss out the elite athletes, but more 
likely the intramural player for whom hurdles to participation 
become quickly insurmountable.
    Privately owned fee-based facilities are springing up to 
meet the need for recreation. While these first-class complexes 
of sport fields and support facilities can and do deliver 
quality services, we should not allow personal financial 
resources to determine citizens basic access to recreation.
    At the same time, there are almost daily reports about the 
negative health consequences of America's sedentary lifestyle. 
Just last Friday, the government's Centers for Disease Control 
and Prevention reported that, due to inactivity and overeating, 
35 percent of the country's adults and 13 percent of our 
children weigh dangerously more than they should. This is the 
most overweight the nation has been since the government began 
compiling statistics in the 1960's. According to the National 
Task Force on the Prevention and Treatment of Obesity, the 
economic costs of obesity in the United States exceed $68 
billion annually. The need to make recreation alternatives 
available to all Americans is good public policy.
    I do not want to leave the impression that the LWCF is, or 
should be, simply a funding vehicle to provide safe, affordable 
recreation opportunities. I have focused on the recreation 
issues because I know them better, but any discussion of LWCF 
must include its fundamental conservation legacy. The 
protection of threatened land and water resources remains a 
central and essential basis for the fund.
    Development pressures in urban, suburban and exurban 
America are well documented. The U.S. Department of Agriculture 
found that the amount of developed land in the United States 
increased by 14 million acres between 1982 and 1992. According 
to National Growth Management Leadership Project, during the 
last twenty years in the New York metropolitan area population 
grew by 8 percent while amount of urbanized land increased by 
65 percent. During the same period, population in Seattle grew 
by 38 percent but the amount of urban area grew by 87 percent. 
In Denver, projections tell the same story.
    Many wildlife and plant resources are threatened by this 
development. Strapped state and local budgets limit options to 
address habitat degradation. Hundreds of non-game species will 
benefit if action is taken before the need for threatened or 
endangered designations. An appropriately funded Land and Water 
Conservation Fund would offer real potential to protect 
important natural settings.
    Of further concern is the possibility that we are bringing 
up generations of Americans who have no connection to the 
wonders of our country's vast natural legacy. The future policy 
implications of having large numbers of citizens with no hands-
on contact with nature and conservation are scary. Both for our 
industry and for the country.
    Looking forward, I offer several recommendations for 
consideration. First, the Fund clearly needs to be modified to 
allow states and localities greater flexibility to take action. 
Devolution requires the ability for states and localities to 
adapt a program to locally developed and implemented 
priorities. Second, the equity of private land owners must be 
respected. Third, federal-state-local partnerships as well as 
public-private collaborations should be encouraged. LWCF 
regulations should be amended to facilitate such partnerships. 
Fourth, oversight and administration of the program should be 
raised to the Department of Interior level. Its current status 
within the National Park Service does not serve the program or 
NPS well.
    The theoretical premise of dedicating royalty income from 
depletion of a non-renewable resource for investment in 
protection of a different precious resource remains strong and 
valid. It should be maintained if at all possible.
    Having participated in policy battles on Land and Water 
Fund for several years now, I must be clear that as much as my 
industry values the potential of an appropriately funded 
stateside fund, we do not advocate draining the federal account 
to increase stateside appropriations. We understand the 
significant budget constraints facing this Congress but believe 
a full investment in both federal and stateside accounts will 
reap fully justifiable dividends for generations to come. The 
1994 report eloquently captures the vision we endorse, `` We 
envision a network of parks, preserves, open spaces, greenways 
and recreation sites and centers stretching across this nation, 
touching all communities, and accessible to all Americans.'' It 
is a noble and appropriate vision, and it will only take hold 
with a long term commitment of resources.
    Thank you for the opportunity to share my industry's views. 
I am happy to answer any questions the Committee might have.

                                ------                                


  Testimony of Judy Beck, Commissioner, Glenview Park District; Past 
        President of the Illinois Association of Park Districts

    Mr. Chairman, Members of the Subcommittee:
    Thank you for allowing me the opportunity to speak to you 
today about a program that is near and dear to my community . . 
. a federal program that really works . . . a federal program 
that has changed the landscape of my town and perhaps many in 
America.
    My name is Judy Beck, I have been an elected park 
commissioner in Glenview, Illinois, for 18 years. I am one of 
2,100 elected in our state who serve without compensation. I 
have been president of our park district three times and am a 
recent past president of our state organization, the Illinois 
Association of Park Districts. As a local government official, 
I would like to speak today on behalf of restoring funding for 
the local grant portion of the Land and Water Conservation 
Fund. A commitment by Congress that is fundamental to the 
protection of recreational opportunities for all Americans.
    We at the local level are most certainly aware of the need 
to contain spending. We face on a much smaller scale, the same 
issue that you do. However, you should be aware that the local 
need for parks and open space cannot be achieved without the 
partnership of the federal government. A partnership that has 
had a long history of success.
    My objective this morning is to speak specifically to that 
portion of the Land and Water Conservation Fund which had been 
devoted to enhancing outdoor recreation opportunities at the 
local level for Americans since 1965. Unfortunately, it is also 
the portion of the program which has been most drastically 
eroded during the past decade.
    The irony of this weakening federal commitment to the 
stateside funding component of LWCF for ``close to home park 
sites'' and recreational opportunities is that this is one of 
the most efficient and effective of all federal grant programs. 
Nationwide, since the program's inception, over $3.2 billion in 
federal seed money has been matched for a total investment of 
$6.4 billion to develop nearly 27,000 state, county and city 
park and recreation facilities and acquire 2.3 million acres of 
park land and open space.
    In Illinois the state's existing public recreation lands 
and facilities are inadequate to meet the needs of our 11.5 
million people. Less than 4% of Illinois' land is in public 
recreation and conservation use. Although Illinois is 
recognized as a leader with regard to its recreation 
distribution systems, intense competition for land brought 
about by urban sprawl and an agricultural economy severely 
limits the ability of local and state government to afford the 
increasing demands for public open space and recreation lands. 
Without increased and stable federal funding, opportunities to 
protect quality outdoor recreation lands and pristine natural 
areas in Illinois for future generations will be lost forever.
    The Land and Water Conservation Fund program, as originally 
set forth and funded through the late 60's and 70's, 
accomplished significant results in Illinois as well as 
throughout the country. More than 900 state and local park and 
conservation projects totaling more than $290 million in value 
were funded in Illinois. This year, communities are seeking $24 
million in assistance to enable them to carry out much needed 
projects. The needs . . . the demands . . . obviously are there 
. . . but the money is not. Increased funding for the LWCF 
stateside program is critical to meeting Illinois' close-to-
home park and recreational needs.
    In Glenview, a suburb north of Chicago, we have been very 
fortunate. We have just received reimbursement for (what I hope 
is not one of the last) Land and Water Conservation Fund 
projects in Illinois.
    Let me briefly tell you about the Glenview Park District 
and the ``Grove''. The Glenview Park Dlsttict is a separate 
unit of local government authorized by state statute that 
encompasses all of the Village of Glenview and parts of five 
other surrounding villages and unincorporated Cook County, with 
an approximate population of 50,000. We have independent taxing 
capabilities for open space and recreation, the limits of which 
have been ``capped'' by our state General Assembly. By design, 
as much as 60% of our budgeted income is from fees and charges.
    The challenge in Glenview, indeed in all of Northeastern 
Illinois, is to provide for open space and recreation in a 
highly populated area, with a strong economy driving up land 
values. To illustrate that, undeveloped land is so expensive 
that it is priced by the square foot, not by the acre.
    I'd like to share with you the outstanding results of the 
Land and Water Conservation Fund (LWCF) Local Grant Program as 
it has been applied in our community. ``The Grove'' is a 123 
acre nature preserve and center, and national historic landmark 
that was the home of Robert Kennicott, the western most natural 
scientist for the Smithsonian Institution, the discoverer of 
dozens of species, plants and animals (many of which remain on 
this site today) and one of the early explorers of Alaska.
    In 1975, LWCF money was used as a part of a million dollar 
package to purchase 82 acres and Robert Kennicott's homestead. 
Money from LWCF was leveraged with state and local public funds 
as well as private contributions.
    In 1995, LWCF dollars were again used with state, local and 
private funds to add 41 adjacent acres owned by the John C. and 
Catherine T. Mac Arthur Foundation. As a result of the LWCF 
grant, our agency was able to reunite parcels that were once 
part of the original Kennicott's Grove. LWCF, and Illinois 
funding through its Open Space Land Acquisition and Development 
(OSLAD) Grant Program each contributed $400,000 toward the 
total purchase price of $2.275 million. The Mac Arthur 
Foundation contributed $400,000, the Local Grove Support 
Organization contributed $575,000, and the Glenview Park 
District contributed $500,000 to reach the total. It was LWCF 
and OSLAD's participation that leveraged the foundation and the 
local support to help us meet our goal.
    Today the Grove is a vital part of our community. 
Approximately 75,000 school children visit the Grove, and total 
annual attendance is about 500,000. This is a clear 
measurement, but just one example, of the success of LWCF 
spending.
    I testify before you today because I believe in the value 
that parks and recreation adds to the lives of all Americans. I 
have seen the impact of suburban sprawl in the Chicago suburbs 
and the tremendous brownscape problems in the city. I have also 
seen firsthand that stateside LWCF funding is a stimulus to 
acquiring additional monies for investment in our parks. This 
funding does more than provide opportunities for fun and games, 
it impacts youth at risk and crime prevention, health care cost 
reductions, economic growth, urban revitalization, and promotes 
a tremendous sense of family and community pride.
    Today I'm asking for your assistance and commitment to 
provide funding for the stateside component of LWCF. I assure 
you that your commitment will be recognized by the unseen 
future generations of Americans who will commend you for your 
foresight.
    Mr. Chairman, thank your for opportunity to bring the open 
space concerns of Illinois to the members of the subcommittee.

                                ------                                


Statement by Katherine Stevenson, Associate Director, Cultural Resource 
Stewardship and Partnerships, National Park Service, Department of the 
                                Interior

    Mr. Chairman and members of the Subcommittee, I appreciate 
the opportunity to testify on one of the National Park 
Service's important partnership programs, the Land and Water 
Conservation Fund (LWCF) state grant-in-aid program.
    As you travel across the country, in your State and in your 
District, many of the park sites you visit, from the smallest 
inner-city athletic field to the greatest expanses of 
wilderness, have a common link: the LWCF program. Given 
available resources, however, the Administration and Congress 
have decided to focus LWCF funding on top-priority Federal 
acquisitions for parks, forests, refuges and public lands. The 
LWCF State grants assistance program was not funded for Fiscal 
Years 1996 and 1997. In keeping with the Administration's 
ongoing efforts to balance the budget, funding was not proposed 
for FY 1998 nor are there plans to request any new grant 
appropriations in the foreseeable future. Instead, the 
Administration proposes funding for the most critical projects 
needed to protect resources or improve management of authorized 
parks and other areas.
    The unique place of the LWCF in America's conservation and 
recreation legacy can be better understood through a quick 
review of its origins.
    During the Eisenhower Administration, increasing 
consciousness of public health and environmental issues and an 
expanding need for recreational space resulted in the creation 
of the Outdoor Recreation Resources Review Commission (ORRRC) 
in 1958.
    After three years of research, the bipartisan Commission 
developed specific recommendations for a national recreation 
program. The ORRRC report emphasized that State, local, and the 
Federal governments and the private sector were key elements in 
the total effort to make outdoor recreation opportunities 
widely available.
    Largely as a result of ORRRC's work, the Land and Water 
Conservation Fund Act was passed and signed into law on 
September 3, 1964, as Public Law 88-578. The Act established a 
funding source for both Federal acquisition of park and 
recreation lands and matching grants to state and local 
governments for recreation planning, acquisition and 
development. It set requirements for state planning and 
provided a formula for apportioning annual LWCF appropriations 
to the States and Territories.
    The Act reflects two historic principles:
    (1) to provide predictable annual funding for high priority 
capital investments that help ensure conservation of our 
nation's natural resources and our ability to meet recreation 
needs, not only for the immediate present, but for future 
generations as well; and
    (2) to reinvest a significant portion of Federal returns 
from exploitation of one key natural resource, the mineral 
products removed from the Outer Continental Shelf areas, in 
conservation of other key natural resources, namely public 
parks, wildlife habitats and other recreation resources.
    By incorporating these principles, the LWCF Act became a 
model for resource conservation programs in many jurisdictions 
around the country.
    Several increases in the fund culminated with enactment of 
P.L. 95-42 in June 1977, which raised the authorization level 
of the Fund to $900 million for FY 1978 and subsequent years. 
The increases in the Fund's authorization over the years 
reflected Congress' understanding that the needs for the Fund 
had expanded in three ways: the State grant program needed to 
give more emphasis to urban parks and recreation areas; the 
grant program should help acquire and develop recreation 
facilities within urban areas; and the Federal side of the Fund 
program needed to contribute to meeting close-to-home 
recreation needs. The appropriations authority under the 
original LWCF Act was extended through 2015 with the enactment 
of P.L. 100-203.
    Since 1965, funding for the grants program has averaged 
approximately $105 million per year. Recently, the annual 
appropriations have been below this average: The FY 1995 
appropriation totalled $24.7 million, and in FY 1996 and 1997, 
the appropriation for new grants was zero.
    Initially, three sources of revenue to the fund were 
designated: proceeds from sales of surplus Federal real 
property, motorboat fuel taxes and fees for recreation use of 
Federal lands. The level of funding from FY 1966 through FY 
1968 reached about $100 million per year, which was far short 
of Congress' expectations. To remedy this shortfall, it was 
proposed that Outer Continental Shelf (OCS) mineral leasing 
receipts be tapped. In 1968, P.L. 90-401 raised the Fund's 
level to $200 million a year for five years making OCS revenues 
available to cover the difference between this minimum level 
and receipts from other sources.
    LWCF Grant Process
    Simply put, the LWCF grant program is a State-driven grant 
program. Each State receives a share of each annual 
appropriation called an ``apportionment''. This apportionment 
is made by the Secretary and is based on a legislative formula. 
Through a statewide planning process prescribed by the Act, 
each State, in concert with its local jurisdictions and 
subdivisions, establishes state priorities which serves to 
target the expenditures where the recipients, not the federal 
government, feel that it is needed most.
    Grants are made on a matching basis of no more than 50 
percent for the acquisition and development of public outdoor 
recreation areas and facilities.
    LWCF Program Accomplishments
    For the LWCF State grants program, over $3.2 billion have 
been appropriated to the 50 States, the District of Columbia, 
Puerto Rico, Guam, the Virgin Islands, American Samoa, and the 
Northern Marianas for planning, acquisition and development of 
outdoor recreation opportunities in the United States.
    Through FY 1995, a total of 37,300 projects have been 
approved to support the acquisition of open space for park 
lands or the development of outdoor recreation facilities. The 
Federal share of $3.2 billion has been matched by State and 
local contributions, for a total LWCF grant investment of over 
$6.5 billion. States have received about 8,200 grants and 
counties some 4,800, while cities, towns and other local 
agencies matched more than 24,000 grants.
    Of the total number of projects, about 10,000 have helped 
States and localities to acquire some 2.3 million acres of park 
land. Almost 27,000 projects have been for the development of 
outdoor recreation facilities. Seventy-five percent of the 
total funds obligated have gone to locally sponsored projects 
to provide close-to-home recreation opportunities that are 
readily accessible to America's youth, adults, senior citizens 
and the physically or mentally challenged.
    These facilities are down the street, across town, in the 
inner city, they're in virtually every nook and cranny of our 
country and serve every segment of the public. Millions of 
Americans and visitors to this country have walked, jogged, 
picnicked, hiked, biked, fished, hunted golfed, or hit a ball 
in at least one of these areas. These are the destination State 
parks for families of campers and hikers; parks where kids 
learn baseball and how to swim; parks where grade school 
classes visit nature centers.
    The Legacies of LWCF
    From a historical perspective, the LWCF has contributed 
significantly to the outdoor recreation estate over its 30 
years of existence. With funding ranging from several thousand 
dollars for picnic areas to millions for new national and state 
park lands, conservation areas and recreation facilities, the 
LWCF has had broad impact on outdoor America. Significant also 
is that a considerable amount of the income going to the Fund 
has come about through the leasing of offshore mineral rights, 
thus recycling an important natural resource back to public 
use. While one non-renewable resource is being used another is 
being protected.
    It is important to note that, in addition to the large 
number of projects, LWCF grants have had substantial long-term 
effects on our overall attitudes and policies toward outdoor 
recreation. The first legacy of this kind is the notion, basic 
to the LWCF Act, that States must assume a leadership role as 
providers of recreation opportunities.
    Today, there is clear evidence that the LWCF program has 
resulted in States taking greater responsibility for the 
protection and development of recreation resources at every 
level. The results of State leadership extend beyond simple 
increases in the size and number of recreation areas. Among 
other things, they include State actions to establish scenic 
river and recreational trail systems, to capitalize on the 
value of recreation resources in stimulating tourism and other 
economic opportunities, and to provide additional financial and 
technical assistance to local recreation efforts through State 
planning, grant, and loan programs.
    Second, when the Fund was established, State recreation 
planning was essentially non-existent. Statewide recreation 
planning has given States and their citizens new tools to 
analyze recreation needs and alternatives in a systematic and 
responsive way. Indeed, many states now require that local 
governments develop recreation plans as a condition for any 
type of Federal or State recreation assistance.
    The third legacy is our fiduciary responsibility. Section 
6(f)(3) of the Act that requires all property acquired or 
developed with LWCF assistance must be maintained perpetually 
in public outdoor recreation use. Section 6(f)(3) is the 
cornerstone of the local/State/Federal partnership and provides 
assurance that, regardless of future funding levels, each one 
of the sites receiving assistance under this program is 
protected and will remain in public park and recreation use in 
perpetuity. This provision has immeasurable impact on long-term 
protection of recreation resources.
    Section 6(f) is strong. This provision reduces the 
temptation to use LWCF-assisted park lands as a ``cheap'' or 
``convenient'' land-bank for strip mall or other non-recreation 
developments. Section 6(f) is also flexible. It recognizes that 
times and demographics change and that another use for the 
Fund-assisted property might one day be more appropriate. In 
these cases, converting the property to another use is called a 
conversion and is allowed as long as it is replaced with other 
property of at least equal fair market value and usefulness.
    The protective language of the law has prevented a large 
number of ``nuisance'' conversions. It has also worked in 
hundreds of successful cases where conversions have been 
approved. Here, the replacement lands have protected the 
original public investment and either maintained or enhanced 
the public recreation estate. The law has also withstood 
testing in the courts and found to be strong.
    Consistent oversight over the years has ensured permanency 
of LWCF's contributions to the national recreation estate. The 
most tangible evidence of the program in future years will be 
the tens of thousands of recreation sites across the country 
that will remain available for us and our children and our 
grandchildren.
    LWCF Program Status
    The vision of the Outdoor Recreation Resources Review 
Commission in 1958 has been repeatedly reaffirmed. The 
President's Commission on Americans Outdoors concluded in 1986 
that a successor to the LWCF (due at that time, to expire in 
1989) should be created and dedicated from the sale of 
nonrenewable resources. In 1994 a committee established by the 
National Park System Advisory Board recognized our national 
failure to invest and reinvest in parks and recreation and 
proposed an American Network of Parks and Open Space and the 
revitalization of the LWCF and UPARR programs; and as recently 
as this year, the Americans for our Heritage and Recreation 
Coalition, consisting of a number of disparate groups which 
banded together to seek a reliable funding source for America's 
conservation and recreation needs, concluded that the LWCF is 
``arguably the most important environmental program of this 
century'' and that a reliable source of funding should be 
restored.
    We believe that it is essential to maintain the spirit and 
intent of the LWCF Act as provided for under Section 6(f)(3). 
In keeping with this direction, late last year, NPS established 
a special team to develop plans to accomplish these objectives. 
More specifically, the team has been charged with offering 
recommendations to accomplish the following:
    --expeditiously close-out the LWCF grants project 
selection, approval, and reimbursement processes;
    --establish an effective and efficient plan of action to 
protect the legacy created through the 37,000+ funded projects.
    The team has focused its initial energies on developing 
actions to close-down grant project operations as soon as 
possible. A draft plan of action was adopted and distributed at 
a special business meeting of the National Association of State 
Outdoor Recreation Liaison Officers (NASORLO) in St. Louis on 
February 8. No opposition was expressed to the proposal by 
NASORLO. As of February 26, the following recommendations have 
been implemented:
    --the LWCF obligation process (which now uses unobligated 
funds from prior years' appropriations to fund a handful of new 
projects), will be terminated effective August 30, 1997;
    --all active projects with unexpended balances will be 
terminated effective September 30, 2000. (Ending dates for new 
and amended projects are limited to that same date).
    It should be noted that the Service, under the 
Administration's reinvention and downsizing initiative, has 
significantly reduced LWCF administrative costs, e.g., a 62 
percent reduction in FTE's since FY 1993. Further reductions 
are scheduled for FY 1998 which is in accord with the 
Administration's budget request. It should be noted that the 
lack of newly-appropriated funds for LWCF grant-in-aid 
assistance does not translate to a lack of need for program 
administrative support. In addition, the Secretary has 
continuing fiduciary responsibilities regarding the protection 
and stewardship for over 30,000 assisted sites as well as for 
over 600 projects which have contractual expiration dates 
extending into the end of year 2000.
    Thank you again for this opportunity. I will be glad to 
answer any questions you may have.

                                ------                                

[GRAPHIC] [TIFF OMITTED] T0050.001

[GRAPHIC] [TIFF OMITTED] T0050.002

[GRAPHIC] [TIFF OMITTED] T0050.003

[GRAPHIC] [TIFF OMITTED] T0050.004

[GRAPHIC] [TIFF OMITTED] T0050.005

[GRAPHIC] [TIFF OMITTED] T0050.006

[GRAPHIC] [TIFF OMITTED] T0050.007

[GRAPHIC] [TIFF OMITTED] T0050.008

[GRAPHIC] [TIFF OMITTED] T0050.009

[GRAPHIC] [TIFF OMITTED] T0050.010

[GRAPHIC] [TIFF OMITTED] T0050.011

[GRAPHIC] [TIFF OMITTED] T0050.012

[GRAPHIC] [TIFF OMITTED] T0050.013

[GRAPHIC] [TIFF OMITTED] T0050.014

[GRAPHIC] [TIFF OMITTED] T0050.015

                                  <all>
</pre></body></html>
